<html>
<title> - ADVANCING PUBLIC ALERT AND WARNING SYSTEMS TO BUILD A MORE RESILIENT NATION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 ADVANCING PUBLIC ALERT AND WARNING SYSTEMS TO BUILD A MORE RESILIENT 
                                 NATION 

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS,
                       PREPAREDNESS, AND RESPONSE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 14, 2008

                               __________

                           Serial No. 110-113

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

43-043 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


















































                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas                 Candice S. Miller, Michigan
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

  SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS, AND RESPONSE

                     HENRY CUELLAR, Texas, Chairman

Loretta Sanchez, California          Charles W. Dent, Pennsylvania
Norman D. Dicks, Washington          Mark E. Souder, Indiana
Nita M. Lowey, New York              David Davis, Tennessee
Eleanor Holmes Norton, District of   Tom Davis, Virginia
Columbia                             Candice S. Miller, Michigan
Donna M. Christensen, U.S. Virgin    Peter T. King, New York (Ex 
Islands                              Officio)
Bob Etheridge, North Carolina
Bennie G. Thompson, Mississippi (Ex 
Officio)

                        Craig Sharman, Director

                        Nichole Francis, Counsel

                         Brian Turbyfill, Clerk

        Heather Hogg, Minority Senior Professional Staff Member

                                  (II)















































                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas, and Chairman, Subcommittee on Emergency 
  Communications, Preparedness, and Response.....................     1
The Honorable Charles W. Dent, a Representative in Congress From 
  the State of Pennsylvania, and Ranking Member, Subcommittee on 
  Emergency Communications, Preparedness, and Response...........     2

                               Witnesses

Major General Martha T. Rainville (Ret.), Assistant 
  Administrator, National Continuity Programs, Federal Emergency 
  Management Agency, Department of Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Ms. Lisa M. Fowlkes, Deputy Chief, Public Safety and Homeland 
  Security Bureau, Federal Communications Commission:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Mr. John R. Gibb, Director, New York State Emergency Management 
  Office, State of New York:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17
Mr. Randall C. Duncan, Vice Chair, Government Affairs Committee, 
  International Association of Emergency Managers:
  Oral Statement.................................................    19
  Prepared Statement.............................................    20

                                Appendix

Questions From Chairman Henry Cuellar............................    39
Questions From Ranking Member Charles W. Dent....................    40


 ADVANCING PUBLIC ALERT AND WARNING SYSTEMS TO BUILD A MORE RESILIENT 
                                 NATION

                              ----------                              


                        Wednesday, May 14, 2008

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Emergency Communications, Preparedness, and 
                                                  Response,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 311, Cannon House Office Building, Hon. Henry Cuellar 
[chairman of the subcommittee] presiding.
    Present: Representatives Cuellar, Dicks, Lowey, Norton, 
Christensen, Etheridge, Dent, and Miller.
    Mr. Cuellar. The Subcommittee on Emergency Communications, 
Preparedness, and Response will come to order. The subcommittee 
is meeting today to receive testimony from the Department of 
Homeland Security Federal Emergency Management Agency, the 
Federal Communications Commission, and State and local 
government officials concerning the state of our timely alert 
and warning capabilities to the public before, during and after 
an act of terror, disaster or some sort of emergency.
    First of all, good morning and on behalf of the members of 
subcommittee I certainly want to welcome all of you being here 
with us today. We are glad that you are here to discuss the 
roles and responsibilities of Federal agencies, State and local 
governments and the private sector with respect to issuing 
timely alerts and warning. I think we have seen instances why 
those alerts have to be timely as we have seen in the past.
    With the recent rash of tornados in the Midwest and 
Southeast and with the 2008 hurricane season just weeks away, 
enhancing the reliability, resiliency and the accuracy of 
emergency alerts of the American public is of utmost important 
to this committee and to the Nation. Communities and 
individuals need to know what steps to take in the event of a 
natural disaster or an act of terrorism.
    I am looking forward to hearing about the efforts of FEMA 
and the rest of the Department of Homeland Security, what steps 
they are taking to carry out Executive Order 13407 on alerts 
and warnings that President Bush issued on June& 2006, almost 2 
years ago.
    The executive order directed the Secretary of Homeland 
Security to create a comprehensive public alert and warning 
system for the United States. I am worried that the progress 
has been a little slow, but I am sure that we will go ahead and 
talk about how we are making progress on this.
    I look forward to hearing from the Federal Communications 
Commission about their role and furthering the development of 
the next generation of alert and warning systems. I applaud the 
efforts made by the Commission to comply with the WARN Act to 
establish technical standards for the capability to send 
nationwide emergency alerts by text messages to cell phones and 
other devices during a crisis as technology improves. We 
certainly need to make sure that our agencies, whether it is 
State, Federal or local, we keep up with the technology 
advances that we are seeing.
    This committee will also look forward to the development of 
the Commercial Mobile Alert System, CMAS, for all of the 
millions of people in America who are attached to their cell 
phones and their BlackBerrys. I am sure that we have a few in 
this room who are attached to their cell phones and the 
BlackBerrys.
    It is my understanding that the FCC has included the Texas 
State Broadcasters Association as a member of the Commercial 
Mobile Service Alert Advisory Committee. As a member from 
Texas, I say thank you very much. I am sure that they are 
providing valuable input to the committee's work.
    Further, while I recognize that my State, Texas, is known 
for being the only State that provides a 24/7 emergency alert, 
especially for hearing impaired citizens, I want to encourage 
other States to begin to provide the same capabilities to its 
citizens.
    Finally, I am interested in hearing from our own State and 
local witnesses who will convey the importance of alerts and 
warning to their constituents.
    I would be remiss if I failed to mention the significant 
role that the NOAA and the National Weather Service play in 
alerts warning, and I hope in the future they can join us in 
this critical discussion also.
    As you know, alerts and warnings are the first and most 
important responsibilities that State and local governments 
have, especially during those emergency times. We need to 
ensure that any national system that we implement allows 
decision-makers at the State and local level to have access to 
it.
    Again I want to thank the witnesses for being here. I look 
forward to having your testimony on behalf of the committee.
    The Chair now recognizes the ranking member of the 
Subcommittee on Emergency Communications, Preparedness, and 
Response, the gentleman from Pennsylvania, Mr. Dent, for an 
opening statement.
    Mr. Dent. Thank you, Mr. Chairman, and good morning. 
Today's hearing addresses an important element of emergency 
preparedness--the ability to quickly communicate emergency 
information with the public. Emergency alerts and warnings, be 
it a tornado warning or an alert to shelter in place to avoid 
toxic fumes, have the potential to save lives and property.
    Currently many State and local governments rely on storm 
sirens, local television, and radio broadcasters, as well as 
the National Weather Service's communications network to 
provide emergency information to the public. At the national 
level, the Emergency Alert System exists to allow the President 
to address the Nation in an emergency through radio, television 
and satellite broadcasts.
    The Federal alert and warning systems were developed years 
ago and do not fully utilize today's technology, such as cell 
phones and other wireless devices that we carry around with us. 
In order to bring the Federal alert and warning systems into 
the 21st century, the National Continuity Programs Division of 
FEMA is developing the Integrated Public Alert and Warning 
System, referred to as IPAWS.
    IPAWS seeks to improve public safety through the rapid 
dissemination of emergency messages to as many people as 
possible over as many communications devices as possible. IPAWS 
includes a number of pilot programs to test how various 
technologies can work together to ensure the public receives 
timely information.
    For instance, the Geo-Targeted Alerting System seeks to 
give emergency managers the ability to predict hazard zones in 
near real-time, collaborate on which areas to alert and what 
the message should be, and deliver these alerts to residents in 
a specific geographic area. Many State, local and even private 
and not-for-profit organizations have been at the forefront of 
improving their alert and warning systems. Many have begun 
testing and implementing enhanced systems that will more 
efficiently share target alerts and warnings. For instance, 
after the shootings last April on the Virginia Tech campus, 
some colleges and universities have implemented a text 
messaging system to send alerts to students and faculty 
members' cell phones.
    My home State, the Commonwealth of Pennsylvania, has 
implemented a statewide alerting system and recently the 
southeastern counties have also implemented a free system that 
will allow local officials to send emergency text alerts and 
notifications to cell phones, BlackBerrys or e-mail accounts. 
Other States like New York, as we will hear a little later 
today, have also implemented similar programs to ensure their 
citizens are alerted and are able to take timely action if 
necessary.
    I am pleased to have representatives from FEMA and the FCC 
to discuss the Federal role in alerts and warnings through the 
IPAWS program. I also look forward to discussing how the 
Federal Government's capabilities will be integrated with those 
of our partners at the State and local level, as well as which 
Federal agency will administer the national system once it is 
developed and implemented.
    I also look forward to hearing from our witnesses from New 
York and Kansas on their capabilities to issue emergency alerts 
and warnings, and how the IPAWS program may complement these 
capabilities.
    So again, Mr. Chairman, I thank you for holding this 
hearing today, and I yield back my time.
    Mr. Cuellar. Thank you, Mr. Dent. Other members of the 
subcommittee are reminded that under the committee rules 
opening statements may be submitted for the record.
    At this time I welcome witnesses today. Our first witness 
is Major General Martha Rainville, a retiree, who is the 
Assistant Administrator for the National Continuity Programs 
for the Federal Emergency Management Agency within the U.S. 
Department of Homeland Security. Major General Rainville is 
responsible for providing Federal agency leadership for the 
Federal executive branch continuity of operations, as COOP, and 
also the COG, continuity of governments and contingency 
programs. Again welcome, Major.
    Our second witness is Ms. Lisa Fowlkes, who is the Deputy 
Chief of the Public Safety and Homeland Security Bureau of the 
Federal Communications Commission. Ms. Fowlkes oversees the 
Bureau of Management on critical infrastructure issues, 
including monitoring and analyzing the status of communications 
facilities during our emergencies. Again, welcome.
    Our third witness is Mr. John Gibb, who serves as the 
Director of the New York State Emergency Management Office. He 
has been serving in this capacity since 2001 and has extensive 
knowledge and experience in emergency response, local emergency 
preparedness, emergency planning and emergency worker training. 
Welcome.
    Our fourth witness is Mr. Randall Duncan, who is the 
Director of Sedgwick County Emergency Management, located in 
Kansas. Mr. Duncan also serves as the Vice Chair of the 
Government Affairs Committee of the International Association 
of Emergency Managers and is testifying in this capacity today. 
Again thank you very much, Mr. Duncan, for being here. We are 
all pleased to have you present today.
    Without objection, the witnesses' full statements will be 
inserted in the record. I now ask each witness to summarize his 
or her statement for 5 minutes, and we will begin with Major 
General Rainville.

    STATEMENT OF MAJOR GENERAL MARTHA T. RAINVILLE (RET.), 
ASSISTANT ADMINISTRATOR, NATIONAL CONTINUITY PROGRAMS, FEDERAL 
  EMERGENCY MANAGEMENT AGENCY, DEPARTMENT OF HOMELAND SECURITY

    General Rainville. Good morning, I want to thank you for 
this opportunity to talk to you this morning about FEMA's role 
and further development of the Integrated Public Alert and 
Warning System, known as IPAWS. The Emergency Alert System with 
which we are all familiar has served us well, but it is based 
on technology that is over 15 years old. Through IPAWS, FEMA 
and our partners are transferring the alert system from an 
audio-only signal sent over radio and television to one that 
can support audio, video, text and data alert messages sent to 
residential telephones, to Web sites, pagers, e-mails and to 
cell phones.
    The mission of the IPAWS program is simply to send one 
message over more channels to more people at all times and 
places.
    My written testimony, as you said, has been submitted for 
the record and it lays out in detail the importance of 
interagency cooperation and public-private partnerships and 
improving the Nation's alert and warning systems, lessons 
affirmed through our 2007 pilot program in the gulf regions and 
also the next steps that FEMA will take to develop IPAWS. In 
the interest of time this morning I am only going to highlight 
a few those issues.
    The success of IPAWS depends heavily on interagency 
cooperation and the public-private partnerships because no 
single entity has the ability to create all of the integrated 
public alert and warning system that is required. FEMA works 
closely with our partners at the National Oceanic Atmospheric 
Administration and the Federal Communications Commission to 
ensure coordination of effort when it comes to upgrading, 
improving, securing and regulating IPAWS. We also coordinate 
extensively with others like the Primary Entry Point Advisory 
Committee and the Association of Public Television Stations on 
system upgrades.
    Congress allocated funds in the fiscal year 2005 Katrina 
supplemental that enabled us to deploy a suite of new alert and 
warning capabilities to Alabama, Louisiana and Mississippi 
during hurricane season 2007. For the first time these State 
officials had ability to send alerts via American sign language 
video to residents who are deaf and hard of hearing and to send 
prerecorded messages in Spanish for their residents who did not 
speak English.
    These successful pilots ended on schedule in December 2007. 
But FEMA now, through the Homeland Security Grant Program, 
continues its support to State and local governments in seeking 
to improve their alert capabilities. In fiscal years 2006 and 
2007, twenty-seven States received about $13 million in 
Homeland Security grant funds to improve their alert and 
warning systems.
    Over the next year FEMA is taking steps to improve the 
alert and warning infrastructure and to increase the 
dependability of the national system.
    First, we are strengthening the Federal Government's 
ability to send emergency warnings directly to the American 
people by increasing the number of primary entry point stations 
from 36 to 63. This will enable Federal warnings to reach 85 
percent of the American people directly, up from the current 70 
percent.
    Second, we are increasing the survivability and resiliency 
of the national alert and warning system through digital EAS. 
Digital EAS adds the direct transmission of a voice, video or 
text alert to stations across the country over the public 
broadcast system satellite network. It will also allow the 
distribution of alerts in multiple languages and in American 
sign language.
    Later this summer FEMA will roll out digital EAS to the 
eight States and one Territory that previously participated in 
the pilot. These States are Alabama, Alaska, Florida, 
Louisiana, Mississippi, New Jersey, Texas, South Carolina and 
Puerto Rico. We will also expand digital EAS beyond these 
original nine locations to five more States. We are focusing on 
Regions 4 and 6.
    Third, we are increasing the capacity of the National Alert 
System by incorporating NOAA and the National Weather Service 
infrastructure in the IPAWS architecture. Through NOAA's 
national network, IPAWS gains another redundant path to get the 
message out to State and local entities, to broadcasters and to 
the public.
    Fourth, FEMA is coordinating with the FCC to extend the 
reach of IPAWS through new technology supported by regulation 
and rulemaking, and we are working with them to define the 
aggregator role in how FEMA can best support the 
recommendations in the FCC's first report and order.
    Our goal is to ensure that a President can send an alert to 
the public during an all-hazards event and to support alert and 
warning capabilities chosen by the State and local officials to 
send alerts to their residents. Together with our partners, 
FEMA will ensure that IPAWS is reliable, resilient and secure.
    Mr. Chairman, Ranking Member Dent and members, thank you 
again for this opportunity to talk to you about the integrated 
public alert and warning system. I look forward to your 
questions. Thank you.
    [The statement of General Rainville follows:]
               Prepared Statement of Martha T. Rainville
                              May 14, 2008
                              introduction
    Good morning Mr. Chairman, Ranking Member Dent and Members of the 
committee. I am retired Major General Martha Rainville, Assistant 
Administrator of the Federal Emergency Management Agency's (FEMA) 
National Continuity Program (NCP) Directorate. Thank you for the 
opportunity to appear before you today to discuss the progress that 
FEMA has made over the past 2 years and to describe what we expect to 
accomplish in the years ahead. FEMA is the Executive Agent for the 
national Emergency Alert System (EAS).
    It is my privilege to lead the dedicated professionals with whom I 
work at FEMA. At NCP, our mission is to serve the public by protecting 
our Nation's constitutional form of government in direct support of 
National Security Presidential Directive 51/ Homeland Security 
Presidential Directive 20 (NSPD-51/HSPD 20) and FEMA's recently 
released Strategic Plan. FEMA serves as the Nation's center of 
excellence for government continuity planning, guidance, and operations 
support, in direct support of FEMA's Strategic Goal No. 1: Lead an 
integrated approach that strengthens the Nation's ability to address 
disasters, emergencies, and terrorist events. FEMA also is responsible 
for assuring that the President can address the Nation under the most 
extreme circumstances and is in alignment with FEMA Strategic Goal No. 
3: Provide reliable information at the right time for all users.
    Under the leadership of Administrator Paulison, FEMA has weathered 
difficult times and today is better able to fulfill our mission of 
reducing the loss of life and of property and to protect the Nation 
from all hazards, including natural disasters, acts of terrorism, and 
man-made disasters. The agency has transformed into a ``New FEMA,'' one 
that leads and supports the Nation in a risk-based, comprehensive 
emergency management system of preparedness, protection, response, 
recovery, and mitigation.
    The emergency management landscape today is not what it was in 
2001, or even in 2005 and it will not be the same 2 years from now. 
Together with our partners, we are helping to shape the future of 
emergency management. In this uncertain world, one thing is clear: No 
one person, agency, or group has all the answers. To that end, we are 
transforming our concept of ``emergency management'' into a disciplined 
approach that entails collaboration with stakeholders, thoughtful 
planning, and decisive execution.
    FEMA's direction and authority with regard to alerts and warnings 
are spelled out in various Federal Statutes, regulations and directives 
including: Section 706 of the Communications Act of 1934, as amended 
(47 U.S.C. 606); Warning, Alert, and Response Network Act, Title VI of 
the Security and Accountability for Every Port Act of 2006, Pub. L. 
109-347, 120 Stat. 1884 (2006); Section 202 of the Robert T. Stafford 
Disaster Relief and Emergency Assistance Act, as amended (42 U.S.C. 
5132); 47 CFR Part 11; Executive Order 12472, Assignment of National 
Security and Emergency Preparedness Telecommunications Functions, April 
3, 1983 (amended by Executive Order 13286 of February 28, 2003; and 
Executive Order 13407, Public Alert and Warning System, June 26, 2006.
    Our focus is to raise the level of awareness about continuity 
planning and increase interagency cooperation in the alert and warning 
community to create a more resilient government at all levels. We have 
laid the foundation for becoming an organization that is valued across 
all jurisdictions as an engaged, agile, responsive, and trusted leader 
and partner.
            improving the nation's alert and warning systems
    In the alert and warning community, we work closely with our 
Federal partners at the National Oceanic and Atmospheric Administration 
(NOAA) and the Federal Communications Commission (FCC) to ensure that 
the Federal Government speaks with one voice when it comes to 
upgrading, improving, securing, and regulating the EAS with support 
from the FCC which is responsible for ensuring that broadcasters comply 
with applicable Federal regulations. In 1994, the EAS replaced the 
Emergency Broadcast System (EBS) which has been in operation since 
1963. Under FCC regulations, broadcast radio and television, cable 
television stations, direct broadcast satellite services, and satellite 
radio operators are required to carry national (Presidential) EAS 
alerts and to support State and local EAS alerts and tests.
    We cannot always accurately predict the next disaster. But we can 
plan for it, and we can alert the American people--we can tell them to 
seek shelter before a tornado hits, we can tell them to evacuate before 
the rivers swell up leaving behind a trail of devastation. The 
Integrated Public Alert and Warning System is the Nation's next 
generation alert system. IPAWS is a system of systems through which 
FEMA is upgrading the existing EAS, creating a redundant path through 
Digital EAS, and supporting the distribution of alert and warning 
messages to residential telephones, to websites, to pagers, to e-mail 
accounts, and to cell phones. We cannot do everything at once so later 
this year we are rolling out the first increment to support digital 
alerts. Later on, we will roll out additional increments to support 
risk-based alerts, non-English language alerts and alerts for special 
needs communities. Throughout the increments FEMA will improve the 
resilience and the security of IPAWS.
    We collaborate extensively with our nonprofit partners, 
particularly the Primary Entry Point Advisory Committee (PEPAC), the 
Association of Public Television Stations (APTS), and the Public 
Broadcasting System (PBS). Our partnership with PEPAC and its member 
Primary Entry Point (PEP) stations provides the foundation for FEMA's 
ability to send a Presidential alert to the public and provides the 
existing system over which most State, local, tribal, and territorial 
alerts are sent today. FEMA's partnership with APTS and PBS brings the 
PBS satellite network into IPAWS through Digital EAS. This initiative 
provides a redundant and resilient path over which to distribute 
national, State, local, tribal, and territorial alerts. It is only 
through our public-private partnerships that we are able to sustain, 
upgrade, add, and maintain the PEP stations and integrate the PBS 
satellite network into the IPAWS.
    We recognize that there is no single solution set that will meet 
everyone's alert and warning requirements and that is why FEMA and our 
partners are looking for the most appropriate interoperable solutions 
for IPAWS. At the same time, we are aware of the concerns of our State 
partners who have invested in their own alert and warning systems. With 
that in mind, IPAWS is intended to be fully interoperable with those 
systems by establishing common protocols for alerts and warnings. It is 
only through a coordinated Federal response to Executive Order 13407 
that we can remain focused on the primary reason for establishing 
IPAWS--to provide life-saving information to the American people during 
an emergency.
    Since FEMA established the IPAWS program management office, 
Congress has provided us with an appropriation of $25 million for 
fiscal year 2008. We are focusing our fiscal resources on upgrades to 
the EAS through improvements to and the expansion of the PEP stations; 
developing plume modeling that support geo-targeted messages; using 
satellite networks as a redundant path for alerts (Digital EAS); 
deploying a mobile EAS asset (IPAWS truck); creating standards and 
protocols, and engineering support.
    President Bush in June 2006 issued Executive Order 13407, ``Public 
Alert and Warning System,'' which established the national policy for 
alerts and warnings and directed a series of actions meant to improve 
and modernize the ability of government at all levels to communicate 
rapidly with the American people. The EAS currently allows the 
President to transmit an alert to the American people within 10 minutes 
through the Primary Entry Point (PEP) stations, which then travels from 
station to station in order to send the message over all broadcast 
radio and television stations, cable television stations, and satellite 
radio stations. While a President has never activated the national EAS, 
carrying a Presidential message is mandatory and takes priority over 
any other EAS message. To ensure that the infrastructure remains viable 
for a national message, FEMA tests the connections to the PEP stations 
on a weekly basis. If a Presidential message is ever sent, FEMA would 
authenticate the sender and the message.
    The EAS also provides a means for NOAA, state, local, tribal, and 
territorial government officials to send warnings about local 
emergencies such as AMBER alerts, hazardous material incidents, and 
weather warnings. These warnings are the most common emergency 
messages. State, local, tribal, and territorial government officials 
determine the content of their alerts. The operating procedures that 
govern the transmission of a state, local, tribal and territorial alert 
are developed by the government officials and the local broadcast radio 
and television stations. State, local, tribal, and territorial 
officials include in their state plans measures to validate their users 
and procedures to proscribe the frequency of alerts. The procedures 
then become part of the state EAS plans which are filed at the FCC. 
There is no Federal or other entity that reviews, validates, or 
authenticates a state, local, tribal, or territorial alerts sent over 
the EAS. FEMA does not receive data from NOAA, state, local, tribal, or 
territorial officials about their use of the EAS or the content of 
their alert messages.
    The EAS has served us well, but the reality is that it is based on 
technology that is 15 years old. Through IPAWS, FEMA and our partners 
are transforming the alert system from an audio only signal sent on 
radios and televisions to one that can support audio, video, text, and 
data messages sent to residential telephones, to websites, to pagers, 
to e-mail accounts, and to cell phones. The mission of the IPAWS 
program management office is: ``Send one message over more channels to 
more people at all times and places.''
    We started by re-engaging the Federal alert and warning partnership 
between FEMA, the FCC, NOAA, and DHS' Science and Technology 
Directorate. Successful execution of Executive Order 13407 requires a 
coordinated Federal response as no single entity has the authorities, 
statutes, or appropriations to accomplish IPAWS alone. By more closely 
working with NOAA, FEMA is developing an integrated national 
architecture that will provide a redundant and resilient path for 
alerts sent by the President, Federal, State, local, tribal, and 
territorial officials.
    FEMA is working with the FCC to conduct assessments of the PEP 
stations, and with the NOAA to assess their State and local 
architecture. It will take us approximately 1 year to complete. This 
collaborative and coordinated approach will allow us to verify the 
dependability and effectiveness of the cascading relay system. This 
interoperability among Federal alert and warning systems and the States 
will expand the message delivery capabilities for the President, 
Federal, State, local, tribal, and territorial officials.
    We recognize the importance of establishing a forum for the diverse 
alert and warning stakeholder groups. FEMA is working with DHS to 
identify the appropriate departmental advisory committee that we should 
use to establish a stakeholder subcommittee and comply with the Federal 
Advisory Committee Act. Until that process is complete, we are 
connecting with our stakeholders through national forums such as the 
International Association of Chiefs of Police Conference, the 
International Association of Emergency Managers Conference, the 
National Hurricane Conference, the Big City Emergency Managers' 
Learning and Exchange Forum, and the National Association of 
Broadcasters Show. We are also looking forward to participating in the 
upcoming FCC Emergency Alert Summit later this month.
    Once we finish our coordination for the first IPAWS increment 
(Digital EAS), we plan to conduct town hall meetings this summer in 
FEMA Regions IV and VI and with Regional representatives and State 
emergency management personnel from the selected States.
                lessons learned from the pilot projects
    Since 2005, FEMA has deployed several pilot alert and warning 
technologies to 14 coastal States. The proof of concept pilot projects 
allowed FEMA and the participating States to explore the viability of 
new alert capabilities including the ability to send targeted alerts 
within a specific jurisdiction; the use of digital technology to send 
alerts over public television stations; and the ability to send alerts 
as text messages to cell phones, e-mail accounts, and pagers.
    Congress allocated funds in the fiscal year 2005 Supplemental 
Appropriations in Response to Hurricane Katrina. FEMA used $2.5 million 
of the supplemental appropriations to provide for the first time a 
suite of alert and warning capabilities to Alabama, Louisiana, and 
Mississippi. I am pleased to report that the pilot projects 
successfully demonstrated the integration of new technologies into 
State emergency operations centers. With the pilots, Alabama, Louisiana 
and Mississippi emergency managers had the ability to send alerts over 
the Internet as American Sign Language (ASL) video to residents who 
were deaf or hard of hearing and to send pre-recorded messages in 
Spanish for residents who did not speak English. These successful 
pilots ended in December 2007. In fiscal years 2006 and 2008, 27 
States, including Alabama and Mississippi, applied for and received 
Homeland Security Grant Program funds to improve their alert 
capabilities.
    The pilots also served as a proof of concept and demonstrated that 
State and local emergency management personnel could successfully 
integrate modern technologies into their operations centers. The pilots 
also took a large step toward addressing the GAO concern that the EAS 
must adequately support residents who are not literate in English or 
who are deaf or hard of hearing.
    Thanks in large part to the participation of State and local 
emergency managers, we learned that augmenting the reach of the EAS 
with alerts sent to residential telephones, cell phones, e-mail 
accounts, and other devices was popular with both officials and 
residents. Over a 4-month pilot project period, 8,000 people across 
three States signed up to receive alerts to their cell phones, pagers, 
and e-mail accounts while another 600 signed up to receive ASL video 
translations of alerts. Officials in the three States chose to send 
audio alerts to residential phones totaling approximately 200,000 
calls. The 2007 pilot projects demonstrated the State, local, tribal, 
and territorial emergency operations centers could successfully 
integrate new alert and warning capabilities into their operations. Now 
emergency managers and State, local, tribal, and territorial officials 
can identify and prioritize the capabilities that are best suited to 
protect their residents and apply for funds through the Homeland 
Security Grant Program to help offset the costs.
    One lesson reaffirmed through these various pilot projects is that 
the alert and warning tools preferred by one State may not be as useful 
for another State. State local, tribal, and territorial officials are 
well-suited to determine which alert and warning technologies will 
provide the appropriate protection for their residents. This 
complements FEMA's role to ensure that IPAWS provides an interoperable 
platform to accommodate the options that State officials can choose 
based on likely disasters in their regions and the needs of their 
population. FEMA is partnering with the DHS Science and Technology 
Directorate to establish alert and warning standards and protocols to 
support the ability of State, local, tribal, and territorial emergency 
managers to send alerts to their residents during emergencies. The 
standards and protocols will allow for States to select the 
capabilities that they need without any major reinvestments if they 
need to change their capabilities in the future.
    We also learned that not every technology works for every scenario. 
While sending alerts to cell phones may be an ideal solution for a city 
or county, a localized or regional alert would need to be geo-targeted 
and sent only to a disaster-affected area to avoid overwhelming the 
telecommunications infrastructure. FEMA supports the guidelines and 
recommendations of the FCC to create a framework for delivering 
emergency messages through a nationwide mobile phone alert system. We 
are working with FCC to define the aggregator role and how FEMA can 
best support the recommendations in the FCC's First Report and Order, 
PS Docket No. 07-287.
    We also successfully demonstrated the delivery of alerts to 
residents with special needs and learned that there are many different 
solutions for providing information to people who are deaf or hard of 
hearing. There are State, local, tribal, and territorial officials who 
prefer to use ASL translations of alerts while others like Dane County, 
Wisconsin are sending alerts to a Telecommunications Device for the 
Deaf (TTY) to reach their residents during an emergency. The special-
needs NOAA Weather Radio is widely available (there are various options 
ranging in price from $60 to $150 that can alert residents who are deaf 
and hard of hearing about hazardous conditions). The radios use visual 
and vibrating alarms to signify that an alert is coming and transmit 
warnings to a liquid crystal display readout screen.
    We find more and more States are using innovative approaches to 
alerts by adapting existing technologies to provide their residents 
with life-saving information. One example is Oklahoma's Weather Alert 
Remote Notification program which sends alerts to residents who are 
deaf and hard of hearing over their pagers and other wireless devices. 
The program, started as a pilot in 2001 and funded in part by a FEMA 
grant, was fully implemented in 2003. Through the Homeland Security 
Grant Program programs, FEMA continues to support States that request 
assistance for alert and warning improvements. In fiscal years 2006 and 
2007, FEMA approved $13 million in Homeland Security Grant Program 
funds for alert and warning initiatives to nearly half of the States.
    We at FEMA know that improving the national infrastructure is 
critical and we must ensure that the alert and warning system will 
serve this and future generations. FEMA is setting the framework for 
Federal, State, local, tribal and territorial officials to get critical 
and life-saving information to residents. To ensure the viability and 
survivability of the national backbone, we are devoting resources to 
improving the PEP stations and, through Digital EAS, to creating 
redundant pathways for emergency messages. In conjunction with our 
partners at DHS S&T, we are developing standards and protocols that 
will better inform State, local, tribal and territorial emergency 
managers as they make choices about their alert and warning solutions. 
In this way, FEMA is ensuring that there is a redundant and resilient 
capability for a national message.
                          next steps for ipaws
    Over the next few years, FEMA is taking a number of steps to 
improve the alert and warning infrastructure and increase the 
dependability of the national system.
    First, we are strengthening the Federal Government's ability to 
send emergency warnings directly to the American people by increasing 
PEP stations from 36 to 63. This will enable these warnings to be 
delivered to 85 percent of the American people, up from 70 percent. We 
began the installation of 3 new PEP stations in fiscal year 2007 and 
they were completed and operational in fiscal year 2008. Our immediate 
steps this year are to award contracts to build an additional 24 PEP 
stations that will provide up to 60 days of fuel and supplies, and 
provide an all hazards shelter. These improvements will expand the 
number of locations of entry point receiver stations and will ensure 
their ability to support alerts for sustained periods without resupply. 
This is a lesson learned from Hurricane Katrina and the outstanding 
performance of WWL AM Radio Station 870, the PEP station in New 
Orleans.
    Second, we are increasing the survivability and resiliency of the 
national alert and warning system by utilizing the satellite 
technologies of the Public Broadcast System infrastructure. By 
integrating the PBS satellite network into IPAWS through the Digital 
EAS project, FEMA is improving the survivability of the alert and 
warning infrastructure. Digital EAS will eventually provide video, 
voice, and text messaging capabilities for a Presidential alert, and 
will allow the President, for the first time, the ability to distribute 
a message in multiple languages.
    This year we will roll out the first increment of IPAWS--Digital 
EAS--to the eight States and one territory that previously participated 
in the Digital EAS pilot project: Alabama, Alaska, Florida, Louisiana, 
Mississippi, New Jersey, Texas, South Carolina, and Puerto Rico. We 
also will expand Digital EAS beyond the original nine locations to five 
more States--those under consideration are Arkansas, Georgia, Kentucky, 
North Carolina, New Mexico, Oklahoma, and Tennessee. We are currently 
in the discussion stages with the FEMA Regions and State emergency 
management personnel to finalize our plans. Depending on the results of 
the 2008 installations, we plan in 2009 to roll out Digital EAS to 16 
additional States that are prone to weather hazards such as hurricanes, 
tsunamis, and earthquakes. The State Digital EAS will give State, 
local, tribal, and territorial emergency managers the same 
functionality as a Presidential message including the redundant path of 
the PBS satellite network for message distribution. FEMA will continue 
to roll out Digital EAS until there is coverage in all States and 
territories.
    Third, we are increasing the capacity of the national alert system 
by incorporating NOAA's infrastructure--which is currently in use by 
many of the State and local emergency operations centers--into the 
IPAWS architecture. This year FEMA will provide NOAA with a mobile 
platform (IPAWS truck) that NOAA can use to temporarily re-establish 
alert and warning capabilities within an area affected by a disaster 
and to provide redundancy between the Weather Forecast Office and its 
transmitters if necessary.
    We are also working with NOAA and the National Weather Service 
(NWS) to develop secure interfaces to deliver a Presidential alert to 
the public over the NWS infrastructure. By partnering with NOAA and 
making our systems interoperable, we will build a solid framework for 
State and local officials to use and ensure that the national EAS is 
reliable, redundant, and secure.
    Fourth, FEMA is coordinating and collaborating with the FCC to 
extend the reach of the public alert system through new technology 
supported by new regulations and rulemaking. FEMA is committed to 
supporting and to building on the FCC's report and order to include 
cell telephone in the distribution of emergency information. The 
framework the FCC established is a critical step in executing Executive 
Order 13407 to develop a system that will allow Federal, State, local, 
tribal, and territorial officials to communicate with the American 
people under all conditions. FEMA is working with the FCC and NOAA to 
determine the best and most effective Federal solution to monitor and 
manage the integration of cell phones into the IPAWS.
    Our goal is to ensure that the President will be able to send an 
alert to the public during an all-hazards event, and to support alert 
and warning capabilities chosen by State and local emergency managers 
to send alerts to their residents. Through the pilot project phase and 
now as we prepare to deploy the first permanent increments of IPAWS, 
FEMA is demonstrating how seriously we have taken our responsibility to 
deliver life-saving information to the public.
                                summary
    In summary, FEMA remains committed to providing the infrastructure, 
the guidance, and the support to ensure that the national alert system 
is more robust, more resilient, and more reliable so that when the next 
catastrophic disaster strikes, the President and emergency managers at 
all levels can provide quick and accurate information to all Americans.
    Mr. Chairman, Ranking Member Dent and Members of the committee, 
thank you again for the opportunity to speak, for your support of FEMA, 
and your interest in IPAWS. I appreciate the opportunity to appear 
before you today. Thank you.

    Mr. Cuellar. Thank you very much. Thank you. I would like 
to recognize now Ms. Fowlkes for 5 minutes.

 STATEMENT OF LISA M. FOWLKES, DEPUTY CHIEF, PUBLIC SAFETY AND 
  HOMELAND SECURITY BUREAU, FEDERAL COMMUNICATIONS COMMISSION

    Mr. Fowlkes. Good morning, Mr. Chairman, Ranking Member 
Dent and members of the House Subcommittee on Emergency 
Communications, Preparedness, and Response. Thank you for the 
opportunity to appear before you today on behalf of the FCC to 
discuss our implementation of the Warning Alert and Response 
Network Act, otherwise known as the WARN Act.
    When the President signed the SAFE Port Act into law on 
October 13, 2006, he enacted its component legislation, the 
WARN Act, thus establishing a process whereby commercial mobile 
service, or CMS, providers may elect to transmit emergency 
alerts to their subscribers. The WARN Act requires the 
Commission to undertake a series of actions to accomplish that 
goal.
    I will briefly summarize those requirements and the 
Commission's efforts to date. By December 2006 the Commission 
was required to establish and reconvene an advisory committee 
to recommend technical requirements by which CMS providers 
could voluntarily transmit emergency alerts. As required by the 
act, the Commission established the Commercial Mobile Service 
Alert Advisory Committee, a diverse and balanced group of 
experts, including representatives of public safety 
organizations, the wireless and broadcast industries, FEMA, 
NOAA, and other experts. The committee held its first meting on 
December 12, 2006 as required by the WARN Act.
    Next, the WARN Act required that the committee develop and 
submit its recommendations to the Commission by October 12, 
2007. The committee submitted its report in a timely manner, 
recommending an end-to-end alerting system by which alerts from 
Federal, State, tribal and local governments would be received 
by an alert aggregator which would aggregate and authenticate 
alerts. The alerts would then be sent to an alert gateway which 
would process the alert into a 90-character format that could 
be sent to CMS providers. The alert would then be sent to CMS 
provider gateways and infrastructure for processing and then 
ultimately transmitted to subscribers' handsets. A key part of 
the committee's recommendation was that the alert aggregator 
and alert gateway functions be administered by a Federal 
Government entity.
    On December 14, 2007, the FCC issued a notice of proposed 
rulemaking, seeking comment on implementation of the WARN Act, 
including the recommendation of the advisory committee. The 
Commission received over 60 comments.
    As mandated by the WARN Act by April 9, 2008, the 
Commission was required to adopt technical requirements 
necessary to enable alerting capability by CMS providers. I am 
pleased to report that the Commission released its first report 
and order adopting those recommendations on that date and thus 
complied with the statute.
    The Commission's order adopted the end-to-end architecture 
for the CMAS as proposed by the advisory committee. It also 
concluded that a Federal Government entity should perform the 
alert aggregator and alert gateway functions. The Commission, 
however, did not designate a specific Federal Government agency 
to fulfill those functions. Recognizing that no Federal 
Government agency expressed a willingness and ability to assume 
these functions and that FEMA had filed comments saying that it 
could not legally perform those functions, the Commission 
pledged to work with its Federal colleagues in Congress, if 
necessary, to identify an appropriate government entity to 
fulfill these roles.
    The Commission's order also adopted functional capability 
requirements for the CMS provider control elements of the 
system. In addition, it adopted technologically neutral rules 
requiring participating CMS providers to transmit three classes 
of alerts, presidential, eminent threat and amber alerts, 
requiring participating CMS providers to target alerts at areas 
no larger than the county level, and requiring participating 
CMS providers to include an audio attention signal and 
vibration cadence on CMS capable handsets.
    Due to implementation issues, including network congestion 
concerns raised by wireless carriers during the committee's 
deliberations and the rulemaking proceeding, the Commission 
declined to require at this time that participating CMS 
providers transmit alerts in languages in addition to English.
    With the adoption of technical requirements last month, the 
Commission has now turned to implementing other requirements of 
the WARN Act. Specifically by July 8 the Commission must adopt 
rules requiring noncommercial, educational and public broadcast 
stations to install equipment and technologies to enable the 
distribution and geotargeted alerts.
    The statute also requires that by August 7 the Commission 
must adopt rules that, among other things, established the 
process by which CMS providers would elect to participate in 
the CMAS. The Commission is on track to meet both of those 
deadlines.
    The Commission will continue to coordinate with wireless 
industry, public safety organizations, FEMA, NOAA and other 
stakeholders as we seek to advance the CMAS to full 
implementation. We anticipate that our Federal colleagues in 
FEMA and NOAA will be active participants as we move forward, 
and we look forward to working with them as we seek to find an 
appropriate Federal entity to perform the aggregator gateway 
function.
    We also look forward to working with the public and Members 
of Congress to ensure that we provide an effective commercial 
mobile alert system.
    Thank you for the opportunity to appear before you today. 
This concludes my testimony, and I will be pleased to answer 
any questions you may have.
    I have also provided additional information on the FCC's 
implementation in my written testimony.
    [The statement of Ms. Fowlkes follows:]
                 Prepared Statement of Lisa M. Fowlkes
                              May 14, 2008
    Good Morning Chairman Cuellar, Ranking Member Dent and other 
Members of the House Subcommittee on Emergency Communications, 
Preparedness, and Response. Thank you for the opportunity to appear 
before you on behalf of the Federal Communications Commission to 
discuss our work to satisfy the requirements of the Warning Alert and 
Response Network (WARN) Act and establish the Commercial Mobile Alert 
System (CMAS).
                              introduction
    One of the FCC's primary statutory obligations is to promote the 
safety of life and property through the use of wire and radio 
communication. An essential element of that obligation is the ability 
to alert the American public in times of emergency. In complying with 
our statutory obligations under the WARN Act, the Commission has taken 
a significant step toward implementing one of our highest priorities--
ensuring that all Americans have the capability to receive timely and 
accurate alerts, warnings and critical information regarding impending 
disasters and other emergencies irrespective of what communications 
technologies they use. As we have learned from recent disasters, such a 
capability is essential to enable Americans to take appropriate action 
to protect their families and themselves from loss of life or serious 
injury.
    For over 50 years, the United States has had a mechanism in place 
to deliver alerts to the American public, particularly for the 
President to communicate with the public in the event of a national 
emergency. Until recently, that primary mechanism was the Emergency 
Alert System (EAS), a broadcast-based system that requires radio, 
television and cable systems to deliver emergency alerts to the 
country. The FCC has continued to develop the manner in which alert and 
warning systems take advantage of current technologies, for example, by 
expanding the EAS from its roots in analog television and radio to 
include participation by digital radio and television broadcasters, 
digital cable television providers, satellite radio and television, and 
wireline common carriers providing video programming.
    Wireless services are becoming equal to television and radio as an 
avenue to reach the American public quickly and efficiently. According 
to CTIA, the wireless trade association, approximately 258 million 
Americans currently subscribe to wireless services. Wireless service 
has progressed beyond voice communications and now provides subscribers 
with access to a wide range of information critical to their personal 
and business affairs. In times of emergency, Americans rely on their 
mobile services for critical, time-sensitive information. Needless to 
say, a comprehensive mobile alerting system would bring great benefit 
to the public by quickly reaching people on the go, where they do not 
necessarily have access to broadcast radio or television.
    When the President signed the Security and Accountability For Every 
Port (SAFE Port) Act into law on October 13, 2006, he enacted its 
component legislation, the WARN Act, thus establishing a process for 
the creation of a Commercial Mobile Alert System, whereby commercial 
mobile service, or CMS, providers may elect to transmit emergency 
alerts to their subscribers. The WARN Act required the Commission to 
undertake a series of actions to accomplish that goal. I am happy to 
report that the Commission has met all of its WARN Act deadlines to 
date, and has taken significant steps to facilitate the development of 
an effective Commercial Mobile Alert System. I will briefly summarize 
those requirements and the Commission's efforts to date.
            the commission's implementation of the warn act
    First, by December 12, 2006, 60 days after enactment of the WARN 
Act, the Commission was required to establish and convene an advisory 
committee to recommend technical standards and other requirements by 
which commercial mobile service providers could voluntarily transmit 
emergency alerts. As required by the Act, the Commission established an 
advisory committee, the Commercial Mobile Service Alert Advisory 
Committee (CMSAAC), consisting of a diverse and balanced array of 
experts including: representatives of public safety organizations such 
as APCO, the International Association of Fire Chiefs and the National 
Association of State EMS Officials; local governments including Contra 
Costa County, California and the city of New York; a federally 
recognized Indian tribe; five major wireless carriers and an 
organization representing rural carriers, equipment manufacturers and 
vendors; the National Association of Broadcasters as well as the Texas, 
Michigan and Florida State broadcasters associations; the Association 
of Public Television Stations; organizations representing people with 
disabilities and the elderly; and Federal Government agencies, 
including FEMA and NOAA and other experts. As required by the WARN Act, 
the committee held its first meeting on December 12, 2006.
    Next, the WARN Act required that the CMSAAC develop and submit its 
recommendations to the Commission by October 12, 2007, within 1 year 
after enactment of the statute. The CMSAAC submitted its report to the 
Commission in a timely manner, recommending an end-to-end alerting 
system by which alerts from Federal, State, tribal and local 
governments would be received by an Alert Aggregator which would 
aggregate, authenticate and validate the alerts. The alerts would then 
be sent to an Alert Gateway which would process the alert into a 90-
character format that could be sent to CMS providers. The alert would 
then be sent to CMS Providers' gateway and infrastructure for 
processing and then ultimately transmitted to subscribers' handsets. A 
key part of the committee's recommendation was that the Alert 
Aggregator and Alert Gateway functions be administered by a Federal 
Government agency. Many of the wireless carriers indicated during the 
committee's deliberation and in comments in the rulemaking that a 
federally administered alert aggregator/gateway was essential to their 
participation in the CMAS.
    On December 14, 2007, the Commission issued a Notice of Proposed 
Rulemaking seeking comment on implementation of the WARN Act, including 
the recommendations of the advisory committee. The Commission received 
over 60 comments on the issues raised in the Notice.
    Within 180 days of receipt of the CMSAAC's recommendations, or 
April 9, 2008, the Commission was required to adopt technical 
standards, protocols, procedures and technical requirements based on 
the CMSAAC's recommendations, necessary to enable alerting capability 
for commercial mobile service providers. I am pleased to report that 
the Commission released its CMAS Report and Order adopting those 
requirements on that date and thus complied with the mandate of the 
statute.
    The Commission's Order generally adopted the CMSAAC's 
recommendations. Specifically, the Commission adopted the end-to-end 
architecture for the CMAS proposed by the CMSAAC. It also concluded 
that a Federal Government entity should perform the alert aggregator 
and alert gateway functions, as recommended by the CMSAAC. The 
Commission, however, did not designate a specific Federal Government 
agency to fulfill these functions. Recognizing that no Federal agency 
expressed a willingness and ability to assume these functions and that 
our sister agency FEMA had filed comments saying that it could not 
legally perform these functions, the Commission pledged to work with 
its Federal colleagues and Congress, if necessary, to identify an 
appropriate government entity to fulfill these roles, whether it be 
FEMA, another DHS entity, NOAA or the FCC.
    The Commission's Order also adopted functional capability 
requirements for CMS provider-controlled elements of the CMAS (i.e., 
the CMS Provider Gateway, CMS provider infrastructure and handsets). In 
addition, the order adopted technologically neutral rules: (1) 
addressing emergency alert formatting, classes and elements and 
requiring participating CMS providers to transmit three classes of 
alerts--Presidential, Imminent Threat, and AMBER alerts; (2) requiring 
participating CMS providers to target alerts at areas no larger than 
the county-level, as recommended by the CMSAAC; and (3) requiring 
participating CMS providers to include an audio attention signal and 
vibration cadence on CMAS-capable handsets in order to ensure that 
people with disabilities had access to these alerts. Due to 
implementation issues, including network congestion concerns raised by 
wireless carriers during both the committee's deliberations and the 
rulemaking proceeding, the Commission declined to require at this time 
participating CMS providers to transmit alerts in languages in addition 
to English. With respect to the availability of CMAS alerts while 
roaming, subscribers will receive alert messages if the carrier 
operating the network has a roaming agreement with the subscriber's CMS 
provider and is participating in the CMAS, and the subscriber's mobile 
device is configured for and technically capable of receiving alert 
messages. Finally, the Commission determined that CMAS alerts may not 
preempt an ongoing phone call or data session.
                               next steps
    With the adoption of technical requirements last month, the 
Commission has now turned to implementing other requirements of the 
WARN Act. Specifically, within 90 days of our adoption of the technical 
requirements or July 8, 2008, the statute requires the Commission to 
adopt rules requiring non-commercial educational (NCE) and public 
broadcast stations to install equipment and technologies to enable the 
distribution of geographically targeted alerts by CMS providers that 
have elected to transmit emergency alerts. The statute also requires 
that, within 120 days of adoption of CMAS technical requirements, or by 
August 7, 2008, the Commission must adopt rules that, among other 
things, establishes the process by which CMS providers would elect to 
transmit emergency alerts to subscribers. The Commission is on track to 
meet both statutory deadlines.
    The Commission has--and will--continue to coordinate with the 
wireless industry, the public safety community, DHS, FEMA, NOAA and 
others as we seek to advance the CMAS to full implementation. We 
anticipate that our Federal colleagues at FEMA and NOAA will be active 
participants as we move forward, and we look forward to working with 
them as we seek to find an appropriate Federal entity to perform the 
aggregator/gateway function.
    We have also received, and continue to receive, valuable input from 
interested individuals, State and local emergency management agencies, 
and various elements of the communications sector on our implementation 
of the CMAS. We look forward to working with these stakeholders, the 
public and Members of Congress to ensure that we provide an effective 
Commercial Mobile Alert System to the American people.
                               conclusion
    Thank you for the opportunity to appear before you today. This 
concludes my testimony and I would be pleased to answer any questions 
you may have.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Cuellar. Thank you very much for your testimony. At 
this time I would recognize Mr. Gibb to summarize his statement 
for 5 minutes.

 STATEMENT OF JOHN R. GIBB, DIRECTOR, NEW YORK STATE EMERGENCY 
              MANAGEMENT OFFICE, STATE OF NEW YORK

    Mr. Gibb. Thank you, Mr. Chairman, Ranking Member Dent, for 
the opportunity to be here today. In New York we have addressed 
the alert and warning issue by developing NY-ALERT, which is a 
Web-based, all-hazards alert notification system developed by 
my agency, the New York State Emergency Management Office. It 
is in complete compliance with the Common Alert Protocol and 
allows local and State officials to issue emergency information 
simultaneously through a series of gateways, including posting 
to the New York alert.gov Website, e-mails, blast faxes, text 
messages and also voice messages to land lines and to cell 
phones. It is a very robust system that we have developed over 
the last 11 months. We have a subscriber base of over 1.4 
million New York residents.
    Over the last year we partnered closely with our State 
university system and the City University of New York, so that 
now NY-ALERT is the emergency alerting platform for 55 of our 
State university campuses and 25 of our city university 
campuses. We were rolling NY-ALERT out just at the time the 
tragic shooting at Virginia Tech occurred.
    We also have 24 of our counties in New York State are 
utilizing NY-ALERT now. As I said, it is very robust. Over the 
last 10 months, we issued over 6 million e-mails, millions of 
text messages and hundreds of thousands of phone calls to New 
York residents utilizing NY-ALERT.
    We are also working with our State agencies to support 
their continuity of operations plans via NY-ALERT. Also to 
integrate Amber alerts and with our State Office of Homeland 
Security to develop a system of providing emergency information 
to the critical infrastructure community.
    I am proud to say that NY-ALERT has been developed 
completely in-house by our staff programmers. This year 
Governor Paterson has made a commitment of $5.4 million to 
further roll out NY-ALERT and support its operations.
    One of our frustrations last year was our inability to use 
hazard mitigation grant funds to further the efforts, and one 
of our recommendations would be that the Federal Government 
look at that guidance to allow these types of investments to be 
made.
    Later this year we will be unrolling a number of new 
enhancements to NY-ALERT which will allow notifiers to actually 
draw on a map the area that they want to send the emergency 
information to. We will be increasing our dollar capacity and 
making the sign-up process for users even more simplified.
    I just want to say that NY-ALERT is not a pilot program, it 
is not a test. We are using it every day to provide emergency 
information to New York residents. This coming Monday our State 
Department of Transportation will start issuing trans alerts 
which will be emergency information regarding our highway 
systems in New York State to individuals who sign up for that 
feature.
    We look forward to the IPAWS system as it rolls out, and we 
are hopeful that the Federal efforts will look at local 
infrastructures that are in place and integrate as effectively 
as possible with State and local systems that are in place.
    We are also very interested in cell casting or cell 
bursting, the ability to issue messages to every cell phone 
that would see a given tower, as the CMAS system intends to do. 
I find it a little worrisome that for CMAS to work they will 
expect local officials to get an emergency message up to the 
Federal Government, up to the carriers and back down to the 
local cell towers. Obviously it would be much more effective 
for local emergency managers to have immediate access. We are 
working with carriers in our State to try to integrate this 
capability directly into NY-ALERT.
    In closing, I will just say that NY-ALERT is our State 
solution to alert and notification. We think it will serve us 
very well in the years to come, and I look forward to your 
questions. Thank you.
    [The statement of Mr. Gibb follows:]
                   Prepared Statement of John R. Gibb
                              May 14, 2008
    Good morning Mr. Chairman, Congressman Dent and thank you for the 
opportunity to appear before you today to discuss the critical 
importance of having a modern and robust public alert and warning 
capability for our Nation.
    My name is John Gibb and I am Director of the New York State 
Emergency Management Office. Emergency alert and warning has long been 
a core responsibility of our government and the emergency management 
community. Since the ride of Paul Revere, Americans have shown that if 
they are provided with information about a potential threat or risk, 
they will take actions to protect themselves and their property. 
Stephen Flynn, a Senior Fellow for National Security Studies at the 
Council of Foreign Relations, recently cited the example of the brave 
American passengers on United Flight 93. Having received information of 
the unfolding events that morning of September 11, 2001, those selfless 
citizens took action and made the ultimate sacrifice to protect their 
fellow Americans. Given timely information, our citizens will seek to 
help themselves in the face of great adversity. Recent advances in 
technology have challenged us to re-examine how we can best disseminate 
critical public information to our residents. I am especially pleased 
to be able to discuss with you NY-ALERT which is the state-of-the-art, 
web-based alert and notification system that we have developed in New 
York.
    Alert systems are not a new issue for our Nation. The Emergency 
Alert System (EAS) and its predecessor, the Emergency Broadcast System 
(EBS), have provided a platform for the dissemination of emergency 
information to the public and met the Federal requirement for the 
President to have the ability to provide information to the Nation on 
short notice for decades. Local systems, which at one time included 
civil defense siren systems in many parts of the country, now consist 
of a patchwork of systems that include local access to the Emergency 
Alert System, NOAA weather radios, reverse dialing systems, outdoor 
siren systems and more recently blast email and commercial text 
messaging services. Each of these systems is capable of notifying 
segments of the population, but no single outlet provides a maximum 
penetration of the emergency information to the public that needs to 
receive it. Complicating and delaying dissemination of information 
today is the requirement to create a message tailored to each 
dissemination gateway.
    Presidential Executive Order 13407 in June of 2006 declared the, 
``policy of the United States to have an effective, reliable, 
integrated, flexible, and comprehensive system to alert and warn the 
American people in situations of war, terrorist attack, natural 
disaster, or other hazards to public safety and well-being (public 
alert and warning system), taking appropriate account of the functions, 
capabilities, and needs of the private sector and of all levels of 
government in our Federal system, and to ensure that under all 
conditions the President can communicate with the American people.'' 
While the executive order may be a daunting charge, it is fairly 
unambiguous. Twenty-three months later, however, we do not have a 
comprehensive new national alerting capability and as late as last 
month, Federal agencies were in disagreement over roles and 
responsibilities in administering the Commercial Mobile Alert System 
(CMAS) which is expected to be a national text messaging alert and 
warning capability.
    In New York State we have NY-ALERT which is a web-based, all-
hazards alert and notification system developed by the New York State 
Emergency Management Office. This system, designed and built by a small 
but visionary Information Technology staff at SEMO, is compliant with 
the Common Alert Protocol (CAP) and allows public officials to 
simultaneously broadcast emergency information through series of 
gateways. From a secure website, local and State public safety and 
elected officials can provide emergency information via the Emergency 
Alert System (EAS); email; blast faxes; text messages to cell phones; 
posting to the NY-ALERT website (www.nyalert.gov); RSS (real simple 
syndicate) feeds from the nyalert.gov website; and voice messages to 
landline and cell phones. The unique quality of NY-ALERT is that you 
only create the message once. When the person making the notification 
sends the message, all of the ``gateways'' chosen by the notifier are 
activated simultaneously and the emergency information is delivered to 
users as close to instantly as the individual technologies allow.
    NY-ALERT allows subscribers to sign-up via the internet and dictate 
how they want to be notified and what types of events they want to be 
notified of. Subscribers can designate multiple email addresses, cell 
phones, and landline phones to receive emergency information. They can 
choose the geographic areas they are concerned with down to the town, 
village or city level. Subscribers can also choose the type of 
emergencies they want to be notified of and the severity or urgency of 
the event. We will be announcing a number of enhancements of the system 
in the next several months which will even further improve the service 
to our citizens.
    We have been utilizing NY-ALERT statewide for the past 11 months. 
Last year as NY-ALERT readied completion, the tragic shooting at 
Virginia Tech occurred. Much of our initial efforts shifted to adapt 
NY-ALERT to campus alerting needs. Our NY-ALERT team headed by SEMO's 
Assistant Director for Technology Kevin Ross worked closely with 
university campus safety and information technology officials to tailor 
NY-ALERT to the task. As a result, NY-ALERT is now the alert and 
warning system for 55 of our State University campuses and 25 of the 
City University of New York campuses. NY-ALERT has been activated 
numerous times to disseminate campus related safety information 
including campus closures for weather events and security related 
issues.
    Twenty-four New York counties are currently using NY-ALERT with 
additional with additional jurisdictions coming on board each week. We 
have more than 1.4 million subscriber records already accessible 
through NY-ALERT. We are also able to import E911 data from 
participating counties and support ``notification'' groups which allows 
targeted, private notification of specific groups of individuals using 
the NY-ALERT infrastructure. In the past 10 months NY-ALERT activations 
have issued more than 6 million emails, millions of text messages, and 
made hundreds of thousands of phone calls with emergency information. 
With NY-ALERT's flexibility, our State Department of Transportation, 
effective this coming Monday, May 19, will be sending email and text 
message ``TransAlerts'' providing subscribers with critical information 
regarding highway closures, accidents and significant delays. We are 
working with the State Division of State Police to integrate NY-ALERT 
for their use including the ability to quickly activate AMBER Alerts 
via the system as well. Our State Office of Homeland Security is 
preparing to use the system to share information with their public and 
private sector partners by creating secure notification groups. Through 
this system, the Office of Homeland Security will be able to alert 
critical infrastructure sector partners of new information available, 
provide threat intelligence, and send supporting documentation via 
attachment quickly to their partners.
    I am proud to tell you that NY-ALERT has been designed and built 
using State resources. Governor Paterson has made a significant 
commitment of $5.4 million in this year's State budget to further 
enhance and support the system. One of our frustrations last year was 
that we were not allowed to use available Hazard Mitigation Grant 
Program dollars to enhance our NY-ALERT phone dialer capacity. Federal 
guidance on the use of mitigation funding should be revisited to ensure 
that investments in emergency alerting capabilities be allowed.
    Later this year we will be announcing additional enhancements to 
NY-ALERT including state-of-the-art capabilities such things as 
additional dialer capacity, a geographic interface allowing the public 
safety official making the emergency notification to designate on a map 
the area that they want notified and the ability for people who receive 
emergency information to respond back to the notifier.
    This is not a test. NY-ALERT is not a pilot program. It is being 
used on a daily basis to provide New Yorkers with emergency 
information. Moving forward we know that we will have to work closely 
with FEMA as the Integrated Public Alert and Warning System (IPAWS) 
evolves. It has not been made clear to us when the IPAWS implementation 
timeline will impact New York, but it would seem to make sense that any 
Federal efforts would leverage existing State capabilities like NY-
ALERT. NY-ALERT works now. It can as easily support Federal 
notification needs as it does local needs.
    Cell bursting or cell casting--the ability to send text messages to 
all cell phones that ``see'' a given cell tower--is an important 
capability and we are working with cell providers to add that function 
to NY-ALERT. As I understand it, the Commercial Mobile Alert System 
(CMAS) recently announced by the FCC, which uses this the cell bursting 
capability, will require messages to get to the Federal officials 
(agency yet undetermined) who will then activate the CMAS. We need to 
find a way to integrate CMAS with existing systems like NY-ALERT that 
would allow local emergency officials to access this capability. Every 
emergency is local and the prospect of sending an important emergency 
message from a local jurisdiction to the Federal Government, who will 
then send it to the carriers, to ultimately get back down to local cell 
towers, is worrisome.
    In closing, I feel very confident in saying that NY-ALERT is our 
State's solution to our alert and warning needs and a best practice 
that other States and the Federal Government can draw upon in designing 
an integrated State, regional or national alert, notification and 
warning system.

    Mr. Cuellar. Thank you, Mr. Gibb, for your testimony. At 
this time I would recognize Mr. Duncan to summarize his 
statement for 5 minutes.

STATEMENT OF RANDALL C. DUNCAN, VICE CHAIR, GOVERNMENT AFFAIRS 
   COMMITTEE, INTERNATIONAL ASSOCIATION OF EMERGENCY MANAGERS

    Mr. Duncan. Good morning, Chairman Cuellar, Ranking Member 
Dent, distinguished members of the subcommittee. Thank you for 
this opportunity to testify. I am Randall C. Duncan. I serve as 
the Emergency Management Director for the half million folks 
who live and work in Sedgwick County, Wichita, Kansas.
    We are subject to a number of different hazards in that 
location, flooding, severe storms, both winter and summer, 
tornadoes, and drought. In fact Kansas ranked third in the 
Nation, unfortunately, for tornados on an annual basis. Warning 
in Sedgwick County is accomplished through a multi-layered 
system. We do that to ensure wide dissemination and redundancy 
for the information.
    The first layer of the system we utilize is outdoor warning 
sirens. We have approximately 140 of them covering our county. 
We also have a very close partnership with local radio and 
television stations. Our next layer of warning relies on the 
NOAA National Weather Service all-hazards radio.
    For those who are served by the cable television provider 
in our area there is also a limited override system that allows 
displaying of a message, urging folks to tune to local 
television stations to find out more information.
    What ultimately makes all these layers of warning work, 
however, is citizens with the training who know what to do, 
when to do it, when they receive that alert and warning. In 
fact, the most technologically sophisticated warning system 
possible will fail if people don't take the right action at the 
right time.
    In order to ensure that our public knows what to do, my 
staff and I provide annual training, reaching thousands of 
people, and we have done so in partnership with the National 
Weather Service now for more than 15 years. The National 
Weather Service assessment after the May 3, 1999 Wichita/
Haysville F4 tornado credited that program with reducing the 
loss of lives expected from such an event.
    Sedgwick County also utilizes tools provided by FEMA in 
alert and warning. One of the most important of those is the 
National Warning System, or NAWAS. We utilize that for 
discussions between counties and between the counties and the 
National Weather Service to talk about hazards facing local 
government as well as severe weather.
    The multi-layer warning system we utilize in Sedgwick 
County, however, can be improved. The outdoor warning sirens 
are activated by a single radio signal that provides for 
sounding them in either all or nothing format. Essentially this 
is technology unchanged from World War II. We are looking into 
improving the system. One alternative we are examining, 
automated outbound telephone warning, would cost us about 
$400,000 on an annual basis. Another alternative, changing the 
radio system to allow for a higher level of technology, would 
cost about $750,000.
    We do want to emphasize, as our colleagues have here, alert 
and warning is first and foremost a role of local government. 
If changes are made to create a National Warning System to 
support local governments in their responsibility for issuing 
warnings, we need to make sure that these changes will not add 
more time to the process.
    Picture in your mind a sunny spring morning in Kansas. The 
day starts with a breathtaking sunrise followed a short time 
later with oppressive humidity. When there is a hint that 
thunderstorms are beginning to form and they move into Sedgwick 
County, we activate our volunteer severe weather spotter 
system. Our system consists of specially trained citizens who 
are also licensed amateur radio operators, in addition to 
members of law enforcement and the fire department from the 
County's 20 cities. Our spotters are linked with our EMA 
program through our trunked radio system as well as with first 
responders, the hospital community, the National Weather 
Service.
    If a tornado is indicated by radar or confirmed by 
spotters, we discuss it with the National Weather Service. 
Ideally the decision by the National Weather Service to warn 
and the decision by our EMA to activate the outdoor warning 
sirens will be reached simultaneously. This reinforces the 
importance of the warning to the public.
    In conclusion, alert and warning is first and foremost a 
duty of local government. A mere minute can mean the difference 
between life and death. Any Federal warning system must have 
FEMA in a key role as they are the only Federal partner with a 
mission covering all hazards. Congress should continue to 
support the vital work of the National Weather Service and 
recognize WFOs are a key link in this process. Improvement to 
warning system consists not only of equipment and technology, 
but training and outreach so people do the right thing at the 
right time.
    I am happy to stand for any questions the committee may 
have at this time, and thank you.
    [The statement of Mr. Duncan follows:]
                Prepared Statement of Randall C. Duncan
                              May 14, 2008
    Chairman Cuellar, Ranking Member Dent, and distinguished members of 
the sub-committee, I would like to thank you for this opportunity to 
testify today on the vitally important topic of public alert and 
warning.
    I am Randall C. Duncan, and I have the privilege of serving as 
Emergency Management Director for the nearly 500,000 people who live 
and work in Sedgwick County and the city of Wichita, Kansas. My staff 
and I are responsible for mitigation, preparedness for, response to, 
and recovery from emergencies and disasters whether natural, 
technological, or homeland security in origin. I have served in my 
current community for nearly 10 of my 22 years in this field. During 
that time, I have administered nearly a dozen Presidential declarations 
of major disaster and emergency for events ranging from tornadoes and 
floods to severe winter storms. I had the opportunity to provide 
support to FDNY in the aftermath to the events of September 11, 2001 at 
the Incident Command Post in Manhattan (from September 18-28, 2001). I 
have also served two Governors of Kansas as their appointee to the 
Kansas Commission on Emergency Planning and Response (State Emergency 
Response Commission). I have served as the chair of that body for the 
last 2 years. I also serve as the vice-chair of the International 
Association of Emergency Managers (IAEM) Government Affairs Committee. 
Although today, my remarks are addressed to you primarily in my 
capacity as a local government emergency manager.
    I would like to begin the discussion about this important topic 
with you by describing the alert and warning system currently in place 
within my jurisdiction, and some of the timing elements that are 
associated with it. Then, I'd like to discuss a few broader issues 
relating to the general powers of the various levels of government. I 
would then like to take a few moments to try and paint for you a 
portrait of severe weather in Kansas to illustrate the issue of alert 
and warning from the local perspective. Then, I'd like to conclude with 
some recommendations and suggestions for consideration of the 
subcommittee.
    Sedgwick County is the home to Wichita, Kansas, the largest city 
within the State (nearly 360,000). It is also home to many aircraft 
manufacturers--like Boeing Military, Spirit, Hawker Beechcraft, Cessna, 
Bombardier and others. The county physically covers 1,008 square 
miles--about average area for a county in Kansas. It includes densely 
populated urban areas, suburban areas, and rural areas.
    Wichita and Sedgwick County are subject to a number of hazards. 
Foremost among them is flooding; followed by severe storms (both winter 
and summer), tornadoes, and drought, according to the 2006 version of 
the Sedgwick County Hazard Vulnerability Analysis (http://
www.sedgwickcounty.org/emermgmt/2006_hazardous_analysis_plan.pdf). The 
State of Kansas ranks third in the Nation for the frequency of 
tornadoes on an annual basis. This makes the issue of public alert and 
warning very important.
                 warning system within sedgwick county
    Warning within Sedgwick County is accomplished through the use of a 
system with multiple layers--to ensure wide dissemination of 
information and redundancy in the system. The first layer of the 
system--and the thing people are probably most familiar with on the 
high plains--is the outdoor warning system (some call them storm 
sirens). In Sedgwick County, we have approximately 140 of them covering 
the entire county (See Exhibit A). In addition to this layer of 
warning, we also have a very close partnership with the electronic 
media in the area--both radio and television. The next layer of our 
system of warning relies on the NOAA all hazard radio system. For those 
who are served by the cable television provider in the area, there is 
also a limited ``over ride'' system allowing a message directing people 
to tune to a local television station to find out more information 
about the emergency causing the message to be displayed. What 
ultimately makes all these layers of warning work, however, are the 
citizens with training who know what to do and when to do it when they 
receive the alert and warning. In fact, you can have the most 
sophisticated warning system possible--but if people fail to take 
survival-oriented action after receiving the warning, then the system 
will fail.
    In order to ensure that the public does know what the appropriate 
actions are, my staff and I make appearances in each of the 20 cities 
within Sedgwick County at the beginning of tornado season and provide 
training that literally reaches thousands of people. This outreach 
program is conducted in partnership with the National Weather Service, 
and has been in existence for more than 15 years. In fact, in the 
National Weather Service assessment conducted in the aftermath of the 
May 3, 1999 Haysville/South Wichita tornado, this training program is 
credited with saving many lives.
    Sedgwick County--like most of the other counties in the State of 
Kansas--also utilizes tools provided by FEMA to assist in alert and 
warning. For example, the National Warning System (NAWAS) ``State'' 
side circuit (telephony) is utilized for discussions between counties 
and the National Weather Service to communicate information about 
severe weather and other hazards facing local governments. This allows 
for the timely dissemination of warning through local means to the 
people of the impacted jurisdiction. For example, if a tornado were in 
the county to the west of mine moving into my county, that emergency 
manager could pick up the NAWAS drop, activate the ``push-to-talk'' 
button and let me know what is happening with the storm as it crosses 
jurisdictional boundaries. This tool has been utilized by emergency 
management programs I have been associated with for over 15 years now--
and has existed for a longer period of time across the Nation. At the 
Federal level, this system exists to allow information from the 
President to be widely disseminated in case of a national emergency. 
While local governments utilize this system on almost a daily basis, 
the President has never utilized the system for its originally designed 
purpose.
             vulnerabilities of the existing warning system
    The current warning system in Sedgwick County--especially the 
outdoor warning sirens--has room for improvement. These sirens are 
activated by a single radio signal that provides activation in an ``all 
or nothing'' format. This is, essentially, technology unchanged from 
World War II. In addition, these outdoor warning devices are connected 
to commercial electrical distribution, and in the absence of commercial 
power, they will simply not function. That is why our system of alert 
and warning consists of multiple, redundant layers. We are looking into 
improving this system, but the costs pose problems. One alternative we 
are examining, which would shift the warning paradigm from outdoor 
sirens to automated outbound telephone warnings, would cost 
approximately $400,000 annually in service contracts. Another 
alternative, changing the technology in the radio system to allow for 
individual or group activation of the outdoor sirens is anticipated to 
cost $750,000 for a portion of our existing system.
                     role of government in warning
    Alert and warning is, first and foremost, a role of local 
governments. If there is any change to the warning system, we need to 
make sure that the change will not add more time to the process. In 
addition, any system at the Federal level needs to be designed to 
clearly indicate it supports the local governments in their alert and 
warning role. Any proposed Federal system will also have to have 
provision for local governments to access it as, for example, the 
current NAWAS system does.
    I would also be remiss if I failed to mention the close working 
relationship between local emergency managers and the National Weather 
Service Weather Forecast Officers.
                       a severe weather portrait
    Picture in your mind a sunny spring morning in Kansas. The day 
starts beautifully with a breathtaking sunrise. Not too long after 
that, we begin to notice that things are getting a bit ``muggy.'' We 
are small observers to a large aerial battle taking place between a 
mass of warm, humid air moving northward from the Gulf of Mexico on the 
low level jet stream and a mass of cool, dry Canadian air being 
funneled eastward down the slopes of the Rocky Mountains. They will 
clash along a front, most likely located over the State of Kansas. The 
skirmishes between these air masses won't consist of Improvised 
Explosive Devices (IEDs)--instead, they will consist of rapidly growing 
and exploding cumulus clouds that will eventually produce severe 
thunderstorms on the high plains.
    Emergency Managers in the areas that might be potentially affected 
will be in communication with their local Weather Forecast Office of 
the National Weather Service. In my own case, I would be on the 
telephone or exchanging e-mail with Meteorologist-In-Charge Richard 
Elder at the WFO Wichita. Through the Internet and other sources, we 
would follow the discussion between local meteorologists and the Storm 
Prediction Center in Norman, Oklahoma to find out whether a weather 
watch will be warranted.
    Watches for this type of severe weather--whether thunderstorms or 
tornadoes--are typically issued for a 6-hour period of time. Once the 
watch is issued, emergency managers begin to make contact with 
traditional first responders (law enforcement, fire, emergency medical 
services, public works, hospital community, etc.) to make sure they are 
aware of the potential for severe weather. Then, the sometimes long job 
of watching for developments on satellite photos and radar systems 
begins. When there is a hint that thunderstorms are beginning to 
develop and that they may move into Sedgwick County, we activate our 
volunteer severe weather spotter system to become ready to deploy. In 
our case, this volunteer system consists not only of specially trained 
citizen volunteers who are also licensed amateur radio operators, but 
it also consists of members of law enforcement and fire departments 
within the 20 cities located inside Sedgwick County. Our goal is to 
have any severe weather met at the jurisdictional border by our 
spotters, and observed constantly as it moves through and eventually 
out of Sedgwick County. All of our spotters are linked with our 
Emergency Management program through our 800 MHz Public Safety trunked 
radio system. This allows key partners like the National Weather 
Service, law enforcement, fire, emergency medical service, the hospital 
community (through the Emergency Department) and the media to be 
immediately apprised of what is happening with severe weather. Another 
means of accessing this information is provided to the media and 
general public through our web site (http://www.sedgwickcounty.org/
emermgmt/PublicLogList.cfm).
    Once the National Weather Service has the indication of a tornado 
beginning to form in the upper areas of the storm from their Doppler 
radar system, they will communicate with us and our spotters over the 
trunked radio system. Or, alternatively, if one of our spotters in the 
field observes a tornado beginning to form, this information is 
instantaneously transmitted both to us and the National Weather 
Service. A short discussion will then ensue as to whether the NWS 
believes they will issue a warning based on this observation. Ideally, 
the decision for the NWS and us to warn will be reached at the same 
time, and the systems will be activated simultaneously--to reinforce 
the importance of the warning with the public.
    Newspaper reports from the series of tornado events happening in 
Oklahoma, Missouri, and Georgia over the Mother's Day weekend indicate 
that in some areas, the NWS and local authorities were able to give as 
much as 13 minutes of advance warning. This margin of time greatly 
contributed to the fact that there wasn't an even greater loss of life. 
This timeframe also illustrates the importance and criticality of not 
adding additional time for local governments to activate alert and 
warning functions. Those minutes may literally be the difference 
between life and death for some.
                            recommendations
    I would recommend for the committee to please consider the fact 
that alert and warning is first and foremost a duty of local 
governments. Help in accomplishing this function is always welcome from 
our Federal partners, but the relationship of the Federal Government 
supporting the primacy of the State and local government duty to warn 
should exist through the effort or system.
    I would also like to urge that Congress fully support the vital 
work of the National Weather Service and recognize that the local 
Weather Forecast Offices (WFOs) are a vitally important link in making 
sure the public has adequate alert and warning regarding sever weather 
events. While the National Weather Service is an important Federal 
partner in this relationship, they are by no means the only Federal 
partner involved. FEMA also has a pivotal role to play in this process 
since they are the only Federal Agency that has a mission encompassing 
``all hazards.'' I know that as a local government emergency manager I 
would have a great deal of discomfort if a Federal warning system were 
implemented without FEMA playing a key role in that system.
                               conclusion
    I would request that the committee remember the following elements 
from our discussion today:
  <bullet> That alert and warning is, first and foremost, a duty of 
        local governments.
  <bullet> That a mere minute can mean the difference between life and 
        death in many alert and warning situations.
  <bullet> That any Federal warning system must have FEMA in a key role 
        as they are the only Federal partner with a mission covering 
        all hazards.
  <bullet> That improvement to warning systems consist not only of 
        equipment and technology, but training and outreach so people 
        understand how to respond in an appropriate manner to the alert 
        or warning.
    I stand ready to address any questions the subcommittee members may 
have.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Cuellar. Thank you again very much for your testimony. 
To all of you, thank you. At this time I would remind each 
member that he or she will have 5 minutes to question the 
witnesses. I now recognize myself for 5 minutes for the 
questions.
    One question apiece. First one, General Rainville, as you 
know, the Nation has suffered greatly after the recent rash of 
tornados in the Midwest and the Southeast. With the 2008 
hurricane season just being weeks away, the time is now to 
fully update, integrate and implement a comprehensive all-
hazards public alert and warning system that relates critical 
information to the American people. Given the number of years 
since the inception of the integrated public alert and warning 
system, can you identify for the committee what has hindered 
FEMA from meeting the goals outlined by the President's 
Executive Order 13407 to actually create the integrated warning 
delivery system of the national, State and local messages?
    General Rainville. Yes, sir, Mr. Chairman. In early 2007, 
FEMA and National Continuity Programs established a program 
management office for IPAWS. That has allowed us to bring 
structure and organization and some strategic planning to the 
whole issue of integrated public alerts and warnings. So we can 
in fact integrate the efforts that have been taken to date. 
That and the funding from the Katrina supplemental allowed us 
in 2007 during the hurricane season to offer the pilot 
capabilities to Mississippi, Louisiana and Alabama and to share 
with the other States the lessons learned from those pilots.
    What we have taken from those is, first, that it is 
important to train and we offer training as a part of those 
pilots. We have been able to establish that American sign 
language video is another method of communicating alerts with 
those who are deaf or hard of hearing. There are other means as 
well and different States have chosen different means.
    We also have understood some of the work that needs to be 
done to fully employ ETN, or Enhanced Telephone Notification, 
System issues of older infrastructure from the providers that 
need to be worked on. What that has led us to is looking at 
hurricane season 2008, realizing that what we will be doing 
this year in conjunction with strengthening the national 
infrastructure is rolling out in those States the first 
increment of IPAWS. It is not a pilot but the first increment 
being laid down, which is to roll out of digital EAS in the 
eight States and one territory where we had piloted 2 years 
previously, and to add five more States into the digital EAS 
capability. That adds for those States that satellite 
redundancy over PBS. Our statistics show that 67 percent of 
American households tune into PBS during the month.
    We are also using our 2008 funding to expand the number of 
primary entry point stations, which are absolutely key to 
getting the message out quickly direct from the FEMA operation 
center to the PEP station. Also NOAA uses our EAS system as 
well.
    So those are some concrete things that we have done 
progressing along with IPAWS.
    Mr. Dicks. Would the gentleman yield on this point? Just 
one point.
    Mr. Cuellar. Yes, certainly.
    Mr. Dicks. What worries me here, and I heard this in the 
statement, in fact the broader IPAWS program with CMAS as a 
component has yet to have a Federal agency designated to 
administer the system once it is developed and implemented. 
This thing sounds like an orphan. Why is this? Why wouldn't we 
have some idea of who would administer this at this point? Why 
wouldn't it be FEMA?
    General Rainville. Sir, it very well may be FEMA.
    Mr. Dicks. Who has to make this decision?
    General Rainville. Right now that issue is internal in FEMA 
and we are working it with the Federal Communications 
Commission as a result of the rulemaking that came out and the 
work that went into the rule. We just needed to clarify that in 
a noncrisis environment that FEMA had clear legal authority to 
become involved at that level with State and local messaging.
    We want to thank the FCC for allowing us that time and not 
naming FEMA specifically in the rulemaking, but we take that 
very seriously and we see that as a critical role and we agree 
with the FCC and other members of the committee that made 
recommendations that this is a critical role, and we expect 
resolution of that very, very shortly.
    Mr. Dicks. Mr. Chairman, all I can say is that we have seen 
a number of things with Homeland Security and this whole area 
where we are going to make a decision and it just don't happen. 
That is one thing Congress is very concerned about. I mean, can 
you give us any time frame? Are we 60 days, 30 days? Who is 
going to make this decision? Who is the great decider here? I 
am sure it is not the President. Who is going to make this 
decision?
    General Rainville. Internally this decision rests with the 
Administrator and I don't want to get out in front of him this 
morning.
    Mr. Dicks. The Administrator of?
    General Rainville. Of FEMA.
    Mr. Dicks. Of FEMA. He is a good man. We have all the 
confidence in the Administrator. If you tell me he will make 
the decision and he will make it promptly, I would feel much 
better about this.
    General Rainville. Yes, sir. I can tell you that this 
morning.
    Mr. Dicks. I thank you for yielding.
    Mr. Cuellar. Yes, there is a letter from FEMA, from the FCC 
to FEMA I believe. The other way around, saying that you all 
don't have statutory authority; is that correct?
    General Rainville. Yes, sir. That was a letter that I 
signed that we sent just prior to----
    Mr. Cuellar. From FEMA over to the FCC.
    General Rainville. Yes, sir. Yes, sir. That letter was a 
result of our receiving the draft rulemaking, not for any 
reason other than some errors on our part and realizing that 
there were some legal questions about the scope or the 
extension that an aggregator would require in FEMA's role and 
the need to clarify those authorities before we committed FEMA 
as the Federal entity. So I wrote that letter to the FCC at 
their request. They were very gracious and just took FEMA out 
specifically and gave us the time, the last couple of months to 
work with them and with NOAA and internally to make sure that 
we clarified all those issues and could move forward.
    That is what I am saying. I think we are very, very close 
to moving forward.
    Mr. Dicks. How long has this decision-making process been 
underway so far? How long has this been out there waiting to be 
decided upon?
    General Rainville. We realized this as an issue the first 
week of February.
    Mr. Dicks. 2008?
    General Rainville. Yes, sir.
    Mr. Dicks. So this is rather recent then?
    General Rainville. Yes, sir.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Cuellar. Yes, sir, Mr. Dicks. My time is up, but let me 
ask you----
    Mr. Dicks. You can have my time.
    Mr. Cuellar. No, that is all right. Can you explain why 
FEMA feels it might be in the best position to perform these 
responsibilities? Do you feel FEMA should be the agency?
    General Rainville. Sir, we see FEMA's long role in the 
emergency alerting system and our role in working very closely 
with State and local governments in alerts and warnings as well 
as continuity of operations really across the spectrum of 
emergencies. So we do feel that we have the technical ability 
and that if you use these last few months to really define what 
that aggregator and Federal gateway function is and to see how 
it would really fit into integrated public alert and warnings 
for the cell industry and other ways of delivering the message. 
So I believe this is very important for FEMA to seriously look 
at, and that is what the Administrator will be deciding on.
    Mr. Cuellar. Let me just follow up on what Mr. Dicks 
mentioned a few minutes ago. What I would like for you to do 
and submit to the committee is the goals under the Executive 
order, where we are in meeting each of the specific goals and, 
if there has been a problem why you haven't been able to meet 
one of those goals, tell us why, the reason. I also want to see 
some timelines, because, like Mr. Dicks said, how long is the 
decision-making process going to be going on until we take some 
positive steps in that direction.
    Mr. Dicks. There needs to be legislative clarification, as 
you suggested. I think this is the committee that would have to 
do it.
    General Rainville. Thank you.
    Mr. Cuellar. Absolutely.
    Mr. Dicks. We would be prepared to do it. If this is what 
is holding it up, we need to hear from you on this.
    General Rainville. We will get that to you as soon as 
possible.
    Mr. Cuellar. So I need each goal to make sure we have the 
integrated system, why we have not been able to meet those 
goals, what do you need for it to be done and whether it is 
statutory authority or whatever it might be and timetables. I 
think that is what Norm was talking about. We need timetables 
provided to the committee 7 days from today.
    General Rainville. We would be happy to do that.
    Mr. Cuellar. I have some other questions. I will wait on 
the second round. At this time I would like to recognize Ms. 
Miller, who is standing in for Mr. Dent, and she will be the 
next person. The gentlewoman from Michigan is recognized for 5 
minutes.
    Mrs. Miller. Thank you very much, Mr. Chairman. I actually 
had a different question, but I find this line of questioning 
from the Chairman and my colleague very interesting as well. So 
let me just follow up on that. I had some verbiage here from 
this letter that was in February 2008 that we are talking about 
from FEMA to FCC, saying that the agency does not have 
statutory authority to transmit alerts originated by States and 
local authorities. You lack the clear legal authority during 
emergencies, et cetera.
    As you are responding back to the committee as the Chairman 
had asked you, could you also take a look at--I mean, I don't 
know, it would seem to me what about Congress just shifting 
this? I don't want to take your job away from you, but 
shouldn't it go perhaps to NOAA? NOAA really is the responsible 
agency at this point for the warning mission, et cetera. I 
don't know if you have any comment on that. Maybe it is too 
simplistic. But perhaps it should just go to the agency that is 
responsible for it, sort of streamlining the process. Could we 
streamline the process by doing such a thing?
    General Rainville. Well, I will respond briefly. I am not 
sure it would streamline the process, because what we have and 
we are partnering very closely with NOAA, because we can both 
add redundancies to our alert and warning systems. As you know, 
NOAA offers all the alerts and warnings right now. FEMA and 
IPAWS has as a mission the maintenance of the emergency 
alerting system and maintaining the ability for the President 
to send the national message out to all Americans.
    So what we are doing with IPAWS is we are taking that 
mission, that key mission, enabling it and updating its 
technology, and then having the infrastructure that the States 
and locals can piggyback on to use their State and local 
messaging. The legal question that came up and the reason that 
we asked for a little bit of time to work it out was the 
question of whether an aggregator would require us to get down 
into the States and locals and become involved in their 
messaging, which would have been something different for FEMA 
to do.
    I believe that the EAS is appropriately in FEMA, that this 
is a good responsibility for us. I know that we are working all 
of these questions out, but we provide each other redundancy 
between FEMA and NOAA, and I think that is a very good for the 
country.
    Mrs. Miller. Well, let me also mention that I certainly 
appreciate all of the witnesses that we have here today. I do 
not envy you your jobs, because it is a very difficult thing. 
You have to be right 100 percent of the time or someone is 
second-guessing you about when you didn't notify them or the 
kinds of information that was in the notification process. I 
think this committee and Congress certainly recognizes that the 
largest room is always the room for improvement. That is what 
we are really about here, as we to try to improve the 
notification system.
    In regards to NOAA--this may be a question for the General 
again--but I am a lifetime boater. So I am quite familiar with 
the NOAA weather buoys, I use them all the time. We do long 
distance racing, et cetera, and they are great. You have a lot 
of black--I don't know how many, maybe that is my question, how 
many black zones there are, where the NOAA weather buoys are 
not as all inclusive as they need to be. In fact in my 
district--I am holding my district up, because in Michigan we 
always have a map of the State at the end of our arm. I have 
this area here, from about this knuckle up to the tip of the 
thumb. Just recently this year, NOAA is putting in a new 
weather buoy because up at the tip of the thumb we have been 
sort of a black zone where they haven't been able to get the 
weather information that they need. Yet we have some of the 
best wind in the country. We are putting huge wind farms in 
right now.
    But I am just wondering how many, if anyone is familiar, 
with how many black zones there are out there or how we may be 
able to improve some of the weather buoy systems that we have. 
I think there are at least one other that we think is necessary 
in Michigan, in the Great Lakes area, that I am aware of.
    As part of that question I am aware now that DHS is 
partnering with NOAA to give out other information through this 
system. What is that exactly? Would you be able to pick up if 
there is terrorist activity and you are listening to the 
weather service there? What other information are going to be 
conduit through this?
    General Rainville. Well, first I would have to ask you to 
refer to NOAA the questions about the black space because I 
really can't answer that.
    I can tell you what IPAWS is working with with NOAA, but 
other parts of the Department of Homeland Security are also 
working with NOAA because they have a tremendous amount of 
capability that we can all use in our areas. We are working 
with NOAA particularly on their geotargeting capability, and 
their plume modeling, being able to add that to our quiver, if 
you will, and to be able to incorporate that into emergency 
managers using it to send out alerts.
    We are also working with NOAA, we are going to be deploying 
as part of the hurricane season some mobile capability that 
will allow NOAA to reconstitute the connectivity between their 
offices and their transmitters for the weather field offices.
    Anything else I would have to defer to others, ma'am.
    Mrs. Miller. Mr. Gibb. I am almost out of time here.
    Mr. Gibb. I would like to say we have partnered very 
closely with the National Weather Service. We have five 
forecast offices that serve the State of New York. We are 
working closely with them to make automatic their warnings and 
advisories so they go automatically through NY-ALERT to the 
intended recipient population.
    We are going to update our user portal this summer so that 
individuals can sign up for the exact kind of weather 
information they want. You can either sign up for all the 
weather products. You may get dozens of different updates 
during the day or as an individual you may only want to know if 
there is a severe thunderstorm warning or a tornado warning, 
and the users will be able to identify the exact type of 
weather information that they want. We are working to automate 
that completely across our system.
    Mrs. Miller. Thank you, Mr. Chairman.
    Mr. Cuellar [presiding.] At this time I recognize Mr. Dicks 
from the State of Washington.
    Mr. Dicks. This is for Major General Rainville and Lisa 
Fowlkes. What would happen to a country if a variety of alert 
management functions were activated based on a spoofed message?
    General Rainville. I think we will team on this answer, 
sir, if that is all right. We do have within the Emergency 
Alert System security to help prevent a spoof message from 
going through. When we look at the improvements we are speaking 
of to IPAWS, even to increase security as a part of that. So 
that any local emergency management official, State or local, 
that puts a message in has to be approved by the system. They 
have certain authorities they have to match in the system 
itself. Based on that person limits the frequency that can be 
used, which limits the area the message can be received. That 
is a part of each State's EAS plan which is on file with the 
FCC.
    So I will defer to the FCC for further discussion.
    Mr. Fowlkes. I can speak in the context of the CMAS. One of 
the functions of the Commercial Mobile Alert System and in fact 
one of the functions of the alert aggregator is to authenticate 
better alerts that are coming in. In other words, what the 
committee recommended was a function where the alert 
aggregator, using what they called a trust model. What the 
trust model is it lays out a bunch of procedures that the 
aggregator would use to authenticate an alert that is coming, 
whether it is coming in from a Federal, State, local or tribal 
government to ensure that, for example, it was coming in from 
an authorized public safety agency. It is in essence a valid 
alert.
    Mr. Dicks. Yeah.
    Mr. Fowlkes. The point of that is to authenticate that 
alert before it goes further into the system, into the other 
pieces of the system.
    Mr. Dicks. Mr. Duncan, you mentioned the need for 
coordination between the Federal Government, the State and 
local governments, but emphasized that this is really a local 
responsibility. What is it you expect from the Federal 
Government? What is the appropriate role for the Federal 
Government and how do you see them best helping you?
    Mr. Duncan. Well, thank you for that question. I think this 
is a great opportunity to kind of discuss roles and 
responsibilities with regard to warnings. I think there is a 
very clearly established Federal interest in the President 
being able to communicate with the public in case of a national 
alert. But I think that the largest number of alerts that 
happen are first and foremost a local government 
responsibility, and I think what we would look for here is 
support from the Federal Government that doesn't add additional 
time or difficulty in getting the alert and warning message 
out.
    One of the key points we would kindly request you all to 
remember is that particularly with regard to tornados and other 
fast moving emergencies, minutes may make the difference 
between life and death. So we ask that whatever process is 
created, it not add too much additional time. We would also be 
very----
    Mr. Dicks. In other words, from getting the message from 
NOAA and the Weather Service out there, don't run it through a 
bunch of hoops, right?
    Mr. Duncan. Yes, sir.
    Mr. Dicks. Are you worried that that is going to happen or 
is it happening now?
    Mr. Duncan. We are worried that there is a potential for 
that, sir. We are also worried that if FEMA does not have a key 
role in this mission that there would be some other issues, 
because again we would remind you FEMA is the only Federal 
partner that has the all-hazards mission.
    Mr. Dicks. Mr. Gibb, do you want to add anything to that?
    Mr. Gibb. Only to say that with modern technology there is 
really no reason why the alerts cannot be automated. Again with 
respect to especially tornado warnings, it is one thing if you 
are putting out a winter storm warning that has the forecast 
for tomorrow. You have the luxury of time. I think NOAA's 
performance standard for tornado warnings is along the lines of 
13 minutes. They might be predict a tornado and so local 
emergency managers are really under the gun to get that message 
out.
    Tornado warning in New York State, local emergency manager 
would be able to go to the NY-ALERT Web page, put in the 
message or cut and paste the NOAA message, get that information 
simultaneously out to every subscriber in the EAS system. Then 
go a second route to get the message through to the Federal 
Government to come back down through the CMAS system. It is 
going to be dated, it will be late information. Again, I think 
we should work together to make sure that those processes are 
as automated as possible.
    Mr. Dicks. General, are we going to do that? Are we going 
to work with these local people to make sure that time is of 
the essence?
    General Rainville. Yes, sir, absolutely. We are very 
sensitive to the concerns of the States and locals with the 
timing of the message and the control of their messages and to 
their residents. We have used this time since that letter went 
out also in defining the aggregator and gateway functions to 
make sure that there would be no delay. Right now just remember 
that that rulemaking pertains only to the cell alerts. There 
are many other alerts going out as well and we look forward to 
working even more with State and locals, but FEMA has that 
network and we absolutely hear what he is saying and we agree.
    Mr. Dicks. I know my time has expired. Let me ask Mr. Gibb, 
you mentioned something about money, that there was some 
concern about utilization of money. Can you explain that to us? 
I'm on the Appropriations Committee as well.
    Mr. Gibb. Through the FEMA Hazard Mitigation Grant Program 
when a State has a declared disaster there are mitigation funds 
that are made available to the States. Typically alert 
notification systems fall out outside of fundable projections. 
There is a 5 percent set-aside for States. We had wanted to use 
those funds to increase our dollar capacity from $250 to 1250 
dial lines, but we were not allowed to use the funding. We have 
already found another source of funds to do that, but we just 
feel that there should be latitude on the part of local and 
State agencies to use available Federal funds to make these 
types of investments.
    Mr. Dicks. Thank you. Thank you, Mr. Chairman.
    Mr. Cuellar. Thank you, Mr. Dicks. In fact let me modify 
what I asked you to do, Ms. Rainville. Instead of 7 days, make 
it 10 days. But I will ask you to talk to Ms. Fowlkes, talk to 
Mr. Gibb, talk to Mr. Duncan, get their input, just following 
the line that Mr. Dicks brought up. I need for you to go ahead 
on the timetables and the goals that are not being met, make 
sure we give the local folks the opportunity to bring in some 
of the thoughts. So instead of 7 days it will be 10 days. I do 
want you to work with both committee staffs to make sure that 
we get this correctly. Okay?
    At this time I recognize Mr. Etheridge, the gentleman from 
North Carolina.
    Mr. Etheridge. Thank you, Mr. Chairman. Let me thank each 
of you for being here. Let me ask a question in a little 
different way. Before I came here I was a State superintendent 
of schools in North Carolina and I always like to know what we 
are doing in terms of education simply because children spend 
most of their days in public schools, and emergencies, man-made 
or natural, tend to hit when they are in school. I would like 
to know as it relates to make sure that the robust emergency 
notification systems are available at schools and that 
development of the Integrated Public Awareness and Warning 
System considers the systems that are in place in our public 
schools.
    So General, how does DHS consider the needs of local school 
agencies in developing the emergency notification system, or 
are they?
    General Rainville. Thank you for that question. I can talk 
to you about what we have considered with the schools as it 
relates to the integrated public alert and warning system. We 
worked with NOAA to distribute weather--alert weather radios to 
systems----
    Mr. Etheridge. To all school systems?
    General Rainville. I believe it was to all public school 
systems, and there are still some left to be distributed. From 
my understanding that was a program that predated the program 
management office here.
    We also, though, want to be sure and we are working to 
ensure that a system that we devise and develop through IPAWS 
is one that will integrate the systems that the local and State 
governments have, including our schools, so that the systems 
they choose are compatible and will work with that national 
infrastructure.
    We also as part of IPAWS have as a goal coming out with 
standards and protocols, so that when a school system wants to 
purchase alert and warning hardware they will know that 
whatever company they are contracting with can meet the 
guidelines that have been developed so that it is all 
compatible.
    Mr. Etheridge. Thank you. That being said then, Ms. 
Fowlkes, let me ask you: Has the FCC considered the special 
needs of schools and their planning and do the rules for cell 
phone alert consider the impact for such alerts on children and 
school facilities so that they are integrated?
    Ms. Fowlkes. The rules that have been adopted thus far have 
focused narrowly on the technical requirements that the 
carriers will have to comply with if they decide to participate 
in the program, in addition to which the entire architecture 
takes into account alerts coming from all sectors.
    Mr. Etheridge. So is that a yes or a no?
    Ms. Fowlkes. I don't think it is a yes or a no.
    Mr. Etheridge. Can you get the answer and get it back to 
us?
    Ms. Fowlkes. Yes.
    [The information follows:]

    The Commission's Emergency Alert System (EAS) rules are designed to 
ensure ubiquitous transmission of national-level alerts and require 
broadcast radio and television, cable television, satellite radio and 
television, and IPTV providers to participate in the EAS, unless they 
have a waiver from the Commission. Receipt and transmission of State 
and local alerts is voluntary, but most broadcasters participate at 
this level as well. Therefore, all schools that are equipped with one 
or more TV or radios would have adequate EAS coverage. In addition, 
FEMA/DHS, the Department of Education, and NOAA have developed a 
program to distribute Public Alert Radios to schools. For more 
information on that program, see: http://public-alert-
radio.nws.noaa.gov/.
    Under the rules adopted by the Commission in April 2008, commercial 
mobile service (CMS) providers who elect to transmit emergency alerts 
must receive and transmit the following information as part of the 
Commercial Mobile Alert System (CMAS) alert: (1) type of alert; (2) the 
area affected; (3) recommended action; (4) expiration time; and (5) the 
agency from whom the alert was sent. See In the Matter of Commercial 
Mobile Alert System, PS Docket No. 07-287, First Report and Order, FCC 
08-99, 1, 20, para.para. 41-42 (rel. April 9, 2008) (``CMAS First 
Report and Order''). It is expected that CMAS alerts will contain 
information similar to what would typically appear in a standard 
National Weather Service message--a simple, declarative statement that 
should be understandable and actionable by children with cell phones.

    Mr. Etheridge. Okay. That will be helpful. Thank you. One 
other question. In just about 9 months, the Nation will be 
making the transition to digital television. In that it means 
that television stations will stop broadcasting with analog 
signals and switch to digital transmissions. My question is 
that a lot of folks who live in rural areas in America have 
radios that are tied to their TV that broadcasts the signal not 
in the visual but in the sound. By and large, those folks may 
not have gotten notice from the emergency alert system when 
that goes off, because you have got that tied, when the 
emergency alert, as you know, goes off, it sounds across the TV 
and they will pick it up on the radio. So my question to you, 
has the FCC looked into this issue, and if so, how do you 
propose to address it? Do people need to go out and buy weather 
radios or find a good AM/FM radio that will work in this 
regard? You know, I think these are some things we may not have 
thought through, but we sure need to let folks know, especially 
in rural areas more so than in urban areas.
    Ms. Fowlkes. I actually cannot speak to that issue. What I 
can certainly do is----
    Mr. Etheridge. Get that information and get it back to us?
    Ms. Fowlkes. Yes.
    [The information follows:]

    A primary mission of the FCC is to ensure that all radio listeners 
receive effective EAS coverage. All radio broadcasters are required to 
carry the national emergency alert message. The transition to digital 
TV in February 2009 will not affect that requirement or the ability of 
listeners of AM and FM stations to receive emergency alerts. The vast 
majority of radios that operate in the TV band also operate in the AM 
and FM bands. Therefore, these radio owners will continue to have full 
access to EAS alerts after the DTV transition. To the extent that there 
is a sufficient demand for a DTV audio receiver to allow people to 
continue to listen to the aural signals of their TV stations, 
manufacturers would develop audio receivers to meet that demand.

    Mr. Etheridge. Would you please, and do that within 10 days 
if that is possible. Thank you. Finally, one of the reasons 
given for the digital transmission is to free up the analog 
spectrum for first responders. My question is, how will this 
new use of the spectrum fit into an integrated alert and 
warning system? Can either of you respond to that? If not, can 
you get that information and get it back to us.
    Ms. Fowlkes. Speaking on behalf of the FCC, I will get that 
information and get back to you.
    Mr. Etheridge. Would you work that with the General, 
because that is important, because that spectrum will be 
available for our emergency first responders?
    Ms. Fowlkes. Yes.
    [The information follows:]

    Answer. Spectrum designated for use by first responders in the 700 
MHz is not used in alert and warning systems for the public. Spectrum 
recently auctioned in the 700 MHz band for commercial use will provide 
commercial wireless providers with spectrum that can support the 
voluntary transmission of emergency alerts to subscribers' mobile 
devices through the CMAS as contemplated by the Warning Alert and 
Response Network (WARN) Act.

    General Rainville. We will work with the FCC to see if 
there is a role for IPAWS in that, yes, sir.
    Mr. Etheridge. Thank you. Thank you Mr. Chairman. I yield 
back.
    Mr. Cuellar. Thank you, Mr. Etheridge. At this time I 
recognize the gentlewoman from the Virgin Islands--she is not 
here. So the gentlewoman from the District of Columbia, Ms. 
Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. As you know, 
Mr. Chairman, I have an interest, as you do, in this area 
because my subcommittee has the all-hazards jurisdiction of the 
Stafford Act. What we are talking about, the existing authority 
we are talking about comes from Section 202, Disaster Warnings, 
and section 611(d) Communications and Warnings of the Stafford 
Act. FEMA was given the authority for these alerts. I was 
particularly interested in testimony about the pilots. On June 
26, 2006, the President issued an executive order, 13407, which 
requires the modernization of the EAS. It identifies the 
Secretary of Homeland Security as the lead. He has delegated 
that to FEMA.
    So as a result of that, my Republican counterparts began 
working on a bill for the modernization of the system, and, in 
fact, have asked me to join them, and I have, and have 
introduced a bill to modernize the system. It has a name, in 
any case. We were concerned with modernization. We know that 
FEMA is running the program and has always run the program 
administratively under both the executive order and the 
Stafford Act. Now, I want to--I was particularly interested in 
pilot projects. First, let me ask, in both my own subcommittee 
and in this committee, after 9/11 we have, as you might expect, 
focused on interoperable communications or equipment.
    Now, when we modernize, that is certainly part of what we 
are talking about. But is that all we are talking about? When 
we talk about the communications and the interoperative 
necessity here, what else besides the equipment is in mind, 
bearing in mind that almost always, as your pilot projects 
demonstrate, we are not talking about terrorist events at all. 
God willing we will never be talking about terrorist events.
    So I want to know since what we are talking about every 
year are hurricanes, what we are talking about every year are 
earthquakes, what we are talking about every year are floods. 
So I want to know is what else is there to this communication 
besides the equipment? If we have the equipment, is that all to 
it? Can we all go to bed and have a good night sleep?
    Mr. Duncan. Good morning, Representative, and thank you for 
the question. I think you asked an extremely interesting and 
insightful question, because one of the first thoughts that 
comes into my mind as a local person is typically we define 
interoperable communications as the ability of everybody to 
speak with everybody, yet if everybody can speak with everybody 
all the time, essentially what you have is chaos. So I would 
like to suggest that it is kind of like the crowd in advance of 
a performance at the symphony or whatever. There is lots of 
different conversations going on, everybody can talk, but real 
interoperable communications doesn't begin until the crowd gets 
quiet and the players actually begin to perform.
    So I would like to suggest that equally as important as the 
equipment is essentially the rules and the governance that 
operate interoperable communications.
    Ms. Norton. Yes.
    Mr. Gibb. I would also like to add that modern alert 
warning systems, again, like NY-ALERT, that we can take 
interoperability sort of off the table. We can broadcast a 
message across radio systems if we need to, as well as get the 
information to people's cell phones, you know, or to their e-
mails, so that there is multiple pathways by which first 
responders or citizens can be notified.
    Ms. Norton. Ms. Rainville, part of your testimony that 
interested me were these pilot projects. I don't believe 
anything until it is tested in real-time. You indicated that 
you tested this in places where we would expect these alerts in 
our country to be most needed; in Alabama, Louisiana and 
Mississippi. Of course, FEMA has been doing this all along. 
What were the differences that you found given the fact that 
you have been routinely doing this since 1979, you have been 
doing this in all kinds of natural disasters, what were the 
differences you found this time?
    General Rainville. Thank you for bringing that up. We found 
that there is more to this than equipment. Some of the 
differences we found, we have States like New York that have a 
very robust alert and warning capability. We went into the 
pilots in Mississippi, Louisiana and Alabama and found States 
that did not have that robust capability. In fact, when we were 
working with the service providers and the States on the pilot 
for the ETN or enhanced telephone notification, about the push 
calling, we have a capability to push 60,000 calls in 10 
minutes to targeted counties at the call of the governor or 
those emergency managers. But we found that the telephone 
structure in the State couldn't support that, that they have 
old switching and they need to do that.
    Ms. Norton. Was this part of what happened in Katrina, by 
the way?
    General Rainville. That I don't know. We weren't piloting 
these capabilities there. But that is why we felt it was 
important to get into those States and really work with them. 
We provided training, because it is also about training, to 
emergency managers so that they understand how to use the EAS 
and what these new capabilities can do. So I would suggest that 
in addition to interoperability, it is important that we have 
integration, and that we work with each other and we integrate 
these capabilities, that we have standard protocols that we all 
understand, so that, again, with upgrading the Federal system 
and really making that a much more powerful system, those 
States and locals can piggyback off of that and have those same 
capabilities to offer to their residents.
    Ms. Norton. Well, finally, Mr. Chairman, the bill, and I 
hope you will join me because of our joint interest in this 
subject, our modernization won't be worth much unless we deal 
with what you have just spoken about. We can have all the 
capability in the world, and we are not going to pay for this. 
Obviously, the States and the localities are going to have to 
understand what it takes in equipment. I am pleased to say I 
think many of them, as I witnessed as already indicated, 
understand what they need to do on the ground. Because they 
have been working together for a very long time on natural 
disasters.
    The notion of robust equipment across the States is very 
troubling, because New York has it, because New York 
experienced, and may have had it all along, but it experienced 
the ultimate disaster. However, that was in one city, it was in 
one place in that city, it was certainly not like a flood 
plain, for example, and it didn't resemble at all a hurricane. 
So I suppose my final question would be, are the States aware 
of the fact that even given the bill that we just introduced, 
that it will be necessary for them to perhaps overhaul their 
own equipment in order for this process to be complete and 
whole?
    General Rainville. I know that the States that we have 
worked with and the feedback that we are getting through our 
FEMA regions would lead us to believe that it is a mixed bag. 
Some States are aware, some States aren't.
    Ms. Norton. Well, what is FEMA doing to make them 
understand that this is not even half of the problem? Most of 
what we are going to be talking about, the alert isn't even 
going to start in Washington. Most of what we are talking about 
is going to start on the ground in a locale. Washington is good 
only if there is some terrible horrible thing that happens. We 
better be prepared for that the next time.
    But essentially, 99-point-whatever percent of the time we 
are talking about, yes, FEMA getting down there because it may 
be a Stafford Act event, but we are basically talking about us 
dealing with you and getting some people down there. So I am 
very worried that the focus on our own interoperability, 
important as it is, something we have done all along, because 
after all, this is the Homeland Security Committee and we have 
got to concerned with that 1 percent, or whatever it turns out 
to be, I am concerned that if there were an event, a Homeland 
Security event, a terrorist event or some kind of natural 
disaster which needed to use the system where Washington, in 
fact, was well suited, but the people on the ground were not 
prepared, for example, for a Katrina or anything even remotely 
like it, then we are really not dealing with all parts of the 
problem. Thank you very much, Mr. Chairman.
    Mr. Cuellar. Thank you. At this time I recognize the 
gentlewoman from New York, Mrs. Lowey, for 5 minutes.
    Mrs. Lowey. Thank you Mr. Chairman. I would like to thank 
all of the witnesses appearing before the committee today. I 
would particularly like to welcome Director Gibb from the New 
York State Emergency Management Office. He has been with the 
State for more than 20 years. I know that if the unfortunate 
event ever happens again, the State is in good hands and well 
prepared. It is a pleasure to see you today. In order to build 
resiliency, all of the DHS component agencies must work closely 
with one another. One concern that I have had for a while is 
that some in DHS do not heed the calls to support State alert 
systems such as NY-ALERT.
    Last week, the full committee heard testimony from 
Assistant Secretary Baker, who appraised alert systems. I gave 
him an overview of NY-ALERT, and he said it was exactly the 
type of system his office encourages. Unfortunately, that 
sentiment is not shared by the Hazard Mitigation Grant Program 
that prohibits funds for being used for alert networks. Well, 
frankly this defies common sense, as a benefit of an alert 
system is to mitigate the impact of all hazards. This is 
indicative of a larger problem with grants. When public safety 
agencies in New York receive Federal funds, it doesn't mean the 
State can go on a shopping spree at the mall. It means the 
Federal Government is assisting with vital State programs. We 
need to reform our grant process so that the most pressing 
needs are addressed first, instead of providing an equal share 
to those with unequal needs first. Doing so would ensure that 
funds are available for vital programs such as NY-ALERT.
    So Director Gibb, has DHS provided any justification for 
explicitly preventing certain grant programs from being used 
for alert systems?
    Mr. Gibb. Well, thank you, Congresswoman, and thank you for 
your continued support for NY-ALERT and for all your efforts to 
reauthorize the predisaster mitigation program, which is a big 
issue for the States as well. Our disappointment with the 
Hazard Mitigation Grant Program was that the 5 percent set 
aside for serious disasters, including one in the Nor'easter 
that impacted severely your district in April 2007, that those 
disasters generated hazard mitigation grant funds, a percentage 
of which are typically made available to the States to support 
a host of State projects.
    We requested that to FEMA, that we would really like to 
invest that money, not to pay for all of NY-ALERT, but just to 
upgrade our dialer capacity, the number of phone lines that we 
could utilize to notify residents of an emergency situation. It 
was on the order of $1.6 million. The FEMA mitigation folks let 
us know that they thought it was too large amount of money for 
one project and a precedent in setting approval for alert 
notification systems.
    So that is the reasons we were given for its denial. That 
being said, you know, we could have potentially used Homeland 
Security grant funds, I think, to support NY-ALERT initiatives. 
But as you know, in New York State, our State office Homeland 
Security is very concerned about making sure that maximum 
amounts of those dollars get down to the local levels and 80 
percent of those dollars are required to be at the local 
levels. We haven't tapped that State 20 percent. Governor 
Patterson again this year wants to keep the ball rolling in 
terms of NY-ALERT and its allocated State funds to make sure 
that the system would bill it down. The savings that we are 
generating for local governments and for the university systems 
around the State can't be understated.
    As opposed to each of the 57 counties, or Westchester 
County or State university systems going out and procuring 
their own alert notification systems. The investment is well 
justified at our State level because we are supporting 
literally dozens and dozens of local entities in their alert 
and warning requirements.
    Mrs. Lowey. Well, I thank you. What about General 
Rainville, do you agree with Assistant Secretary Baker's 
assessment that alert systems strengthen resiliency?
    General Rainville. I would absolutely agree with that 
statement. We through the integrated public alert and warning 
want to encourage States to look out and to prioritize the 
capabilities that are right for their State for alerts and 
warnings. All the different types of capabilities we piloted, 
some will work well for some States based on their hazards than 
others, so we certainly agree with that.
    Mrs. Lowey. So I hope, Mr. Chairman, that we can follow up 
because to have this difference of opinion within the 
Department certainly doesn't serve us well. I want to thank 
particularly Mr. Gibb, and of course all our panelists, for 
appearing before us today at this hearing, and thank you, Mr. 
Chairman.
    Mr. Cuellar. Thank you, Mrs. Lowey. They are going to call 
us probably in the next 5, 10 minutes to vote. I think we 
pretty much finished the line of questioning. The only thing I 
would like to, again, restate, that General, if you can get 
together with all folks here and give them an opportunity to 
set up the request that we have made of you all. The only thing 
I do ask, and I am just going on past experiences, if it is 10 
days, we mean, 10 days and not 2 months. So you all need to 
work pretty hard to get us that information, okay?
    General Rainville. Yes, sir.
    Mr. Cuellar. I want to thank all the witnesses for their 
testimony and the members for their questions. The members of 
the subcommittee may have additional questions for the 
witnesses. If they do have some, we will ask you to respond to 
them as soon as possible in writing to those questions. Hearing 
no further business the hearing is now adjourned. Thank you 
very much.
    [Whereupon, at 11:30 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

Questions From Chairman Henry Cuellar to Major General Martha Rainville 
(Ret.), Assistant Administrator, National Continuity Programs, Federal 
      Emergency Management Agency, Department of Homeland Security
    Question 1a. In a letter dated February 19, 2008 you request the 
FCC to refrain from identifying a Federal agency to take on the role of 
alert aggregator and gateway--a critical component of the Commercial 
Mobile Alert System or CMAS.
    How can FEMA expand the traditional alert and warning system to 
include modern technologies like mobile cellphones--when in the same 
letter, you state that FEMA lacks the statutory authority during non-
emergency periods to develop, implement or operate elements of the 
cutting-edge delivery of messages over wireless devices?
    Answer. Response was not received at the time of publication.
    Question 1b. On what basis do you believe that FEMA lacks the 
statutory authority to implement a nationwide Integrated Public Alert 
and Warning System?
    Answer. Response was not received at the time of publication.
    Question 1c. Do you have a legal opinion from the Office of the 
General Counsel at FEMA on this interpretation of your lack of 
statutory authority? If so, we would like a copy.
    Answer. Response was not received at the time of publication.
    Question 2. What is the exact role of the Disaster Management 
Interoperability Services (DMIS) in alerting and warning the public 
during a time of disaster?
    Answer. Response was not received at the time of publication.
   Questions From Chairman Henry Cuellar for Lisa M. Fowlkes, Deputy 
      Chief, Public Safety and Homeland Security Bureau, Federal 
                       Communications Commission
    Question 1a. As you state in your testimony, one of the key 
recommendations from the CMSAAC was that the Alert Aggregator and Alert 
Gateway function be administered by a Federal Government agency.
    What are the specific roles that an Aggregator performs?
    Answer. The Alert Aggregator serves as the point of entry into the 
Commercial Mobile Alert System (CMAS) for alerts that will be 
transmitted by participating Commercial Mobile Service (CMS) providers 
(i.e., those that elect to participate in the CMAS). The Alert 
Aggregator would ``receive, aggregate, and authenticate alerts 
originated by authorized alert initiators (i.e., Federal, State, tribal 
and local government agencies) using the Common Alerting Protocol 
(CAP).'' In the Matter of The Commercial Mobile Alert System, PS Docket 
No. 07-287, First Report and Order, FCC 08-99, 10 (released April 9, 
2008) (``CMAS First Report and Order''). The Alert Aggregator would 
authenticate alerts received from initiators using a ``Trust Model,'' a 
list of security procedures designed to ensure the validity of alerts 
received into the CMAS. Id.
    Question 1b. Can you explain what the next steps are to get CMAS 
off the drawing board and into the hands of the American public?
    Answer. The WARN Act requires the Commission to adopt rules by July 
8, 2008, requiring noncommercial educational (NCE) and public broadcast 
stations to install equipment and technologies necessary to enable 
geographic targeting by CMS providers that choose to transmit emergency 
alerts. WARN Act,  602(c). Next, the WARN Act requires the Commission 
to adopt rules by August 7, 2008, governing, among other things, the 
process whereby CMS providers must notify the Commission whether they 
plan to participate in the CMAS. WARN Act,  602(b).
    Next, CMS providers must notify the Commission of their decision to 
participate in the CMAS within 30 days after the Commission issues 
rules governing the election and other processes related to 
participation in the CMAS. WARN Act,  602(b).
    The timeline for initial CMAS deployment will depend on how quickly 
both the Federal Aggregator/Gateway and the wireless industry can 
complete and test their respective portions of the CMAS.
    Question 1c. Can you explain why FEMA, as you state may be in the 
best position to perform these functions?
    Answer. As the Commission noted in the CMAS First Report and Order, 
the Department of Homeland Security (DHS), and more specifically FEMA, 
traditionally has been responsible for origination of Presidential 
alerts and administration of the Emergency Alert System (EAS). 
Moreover, Executive Order 13407 gives DHS primary responsibility for 
implementing the United States' policy ``to have an effective, 
reliable, integrated, flexible and comprehensive system to alert and 
warn the American people in situations of war, terrorist attack, 
natural disaster or other hazards to public safety and well-being.'' 
Public Alert and Warning System, Executive Order No. 13407, 71 Fed. 
Reg. 36975,  1 (June 26, 2006) (Executive Order 13407).
    Moreover, FEMA played an integral role in the development of the 
CMSAAC's recommendations. FEMA chaired the Alert Interface Group (AIG), 
which was responsible for addressing issues at the front-end of the 
CMAS architecture (e.g., receipt and aggregation of alerts, development 
of trust model to authenticate alerts from various sources). It also 
represented the AIG before the CMSAAC Project Management Group (PMG), 
which coordinated the work of all the other CMSAAC working groups and 
assembled the CMSAAC recommendations document. In addition, FEMA voted 
to adopt the CMSAAC recommendations in October 2007, which include CMAS 
reliance on a single Federal authority to fulfill the alert aggregator/
gateway functions. CMAS First Report and Order, 16-17.
    Question 1d. What specific recommendations were adopted in the FCC 
Report and Order to include the disabled community and others with 
special needs?
    Answer. To address the needs of people with disabilities and the 
elderly, the Commission required that all CMAS-capable handsets must 
include a unique audio attention signal and vibration cadence. CMAS 
First Report and Order, at 65-67.
Questions From Ranking Member Charles W. Dent for Major General Martha 
    Rainville (Ret.), Assistant Administrator, National Continuity 
 Programs, Federal Emergency Management Agency, Department of Homeland 
                                Security
    Question 1a. As indicated by the line of questioning at the recent 
hearing, there is still some confusion regarding statutory authorities 
to administer the Integrated Public Alert and Warning System (IPAWS) 
once it is established.
    Does the Federal Emergency Management Agency (FEMA) believe it has 
the statutory authority to administer and implement the IPAWS program 
nationwide?
    Answer. Response was not provided at the time of publication.
    Question 1b. When can we expect a Federal agency to be appointed to 
receive and transmit warnings?
    Answer. Response was not provided at the time of publication.
    Question 1c. When is full operational capability of a completely 
integrated national alert and warning system expected?
    Answer. Response was not provided at the time of publication.
    Question 2a. In April 2008, Oregon police reported that false AMBER 
Alert text messages were being sent to the public. False information 
can impact the effectiveness of alert and warning programs and damage 
public confidence.
    How will IPAWS prevent such false messages?
    Answer. Response was not provided at the time of publication.
    Question 2b. Currently, the Federal Government is working to 
consolidate the number of internet access points to enhance the 
security of Federal networks. IPAWS would likely add an additional 
access point. By adding a gateway or increasing the traffic flow over 
Federal networks, would the government be increasing security risks and 
adding delays in message transmission?
    Answer. Response was not provided at the time of publication.
    Question 3. A 2007 Congressional Research Service report on the 
Emergency Alert System (EAS) indicated that there was a lack of 
involvement of stakeholders and recommended that the Department of 
Homeland Security increase its stakeholder outreach.\1\ What is FEMA 
doing to ensure that stakeholders at all levels are actively engaged in 
the development of new alert and warning capabilities?
---------------------------------------------------------------------------
    \1\ The Emergency Alert System and All-Hazards Warnings (RL32527), 
Congressional Research Service, Updated May 5, 2008.
---------------------------------------------------------------------------
    Answer. Response was not provided at the time of publication.
    Question 4a. It is my understanding that FEMA and its Federal 
partners are working to test elements of IPAWS through pilot programs 
at 14 locations across the country, including New York City and the 
Gulf States.
    How would you characterize the outcomes of the pilot programs?
    Answer. Response was not provided at the time of publication.
    Question 4b. Have the programs been successful?
    Answer. Response was not provided at the time of publication.
    Question 4c. What lessons have been learned that will better inform 
the development of new alert and warning capabilities?
    Answer. Response was not provided at the time of publication.
    Question 4d. How much advance notice were the States given prior to 
the termination of any pilot programs?
    Answer. Response was not provided at the time of publication.
    Question 4e. What has been done to ensure that the alert and 
warning capabilities provided by pilot programs did not immediately end 
upon termination of a pilot?
    Answer. Response was not provided at the time of publication.
    Question 5a. One of the businesses involved in the IPAWS pilot 
programs continues to allow the State to utilize its system despite 
discontinued funding from FEMA. Additionally, as Mr. Gibb noted in his 
written testimony, New York currently funds the NY-ALERT program with 
State resources.
    What is the traditional funding mechanism for alert and warning 
programs?
    Answer. Response was not provided at the time of publication.
    Question 5b. Will States require additional funding to integrate 
their systems with IPAWS?
    Answer. Response was not provided at the time of publication.
    Question 5c. What plans are in place to review any applicable grant 
programs that might provide funds to supplement State costs in 
creating, enhancing, or integrating their alert and warning systems?
    Answer. Response was not provided at the time of publication.
    Question 5d. What is FEMA's position on the use of Hazard 
Mitigation Grant Program (HMGP) funds to develop and support alert and 
warning systems?
    Answer. Response was not provided at the time of publication.
    Question 6. Congress and the Department remain committed to 
strengthening the Nation's ability to plan and prepare for all-hazard 
disaster scenarios. As part of this effort, satellite communications 
have proven to be uniquely capable of providing reliable, survivable, 
and redundant communications to our first responders during times of 
crisis.
    How does FEMA use satellite communications in alerts and warnings?
    Answer. Response was not provided at the time of publication.
    Question 7. FEMA recently participated in the Federal Continuity of 
Operations (COOP) exercise.
    Were the national alert and warning systems tested as part of this 
exercise? If not, are there plans to include this portion in an 
upcoming senior level exercise?
    Answer. Response was not provided at the time of publication.
    Question 8a. A formal public-private partnership to develop and 
implement IPAWS has yet to be formalized due to a delay in receiving 
approval to establish an Advisory Committee that would allow 
communication between FEMA and private stakeholders.
    When can we expect that this committee will be stood up?
    Answer. Response was not provided at the time of publication.
    Question 8b. Why has it taken so long to formalize this 
partnership?
    Answer. Response was not provided at the time of publication.
    Question 8c. Has FEMA taken steps to facilitate the informal 
involvement of the private sector in the development and testing of 
IPAWS?
    Answer. Response was not provided at the time of publication.
    Question 9a. The Disaster Management Interoperability Services 
(DMIS) program, operated by the Department of Homeland Security (DHS), 
is intended to provide interoperability services to the responder 
community and integrate with the National Weather Service warnings.
    What specific office at DHS is administering this program?
    Answer. Response was not provided at the time of publication.
    Question 9b. How does the DMIS program relate to the IPAWS program?
    Answer. Response was not provided at the time of publication.
  Questions From Ranking Member Charles W. Dent for Lisa M. Fowlkes, 
   Deputy Chief, Public Safety and Homeland Security Bureau, Federal 
                       Communications Commission
    Question 1. In April 2008, Oregon police reported that false AMBER 
Alert text messages were being sent to the public. False information 
can impact the effectiveness of alert and warning programs and damage 
public confidence.
    Currently, the Federal Government is working to consolidate the 
number of internet access points to enhance the security of Federal 
networks. The Integrated Public Alert and Warning System (IPAWS) would 
likely add an additional access point. By adding a gateway or 
increasing the traffic flow over Federal networks, would the government 
be increasing security risks and adding delays in message transmission?
    Answer. The FCC does not have responsibility for the IPAWS and, 
therefore, cannot comment specifically on its security measures. With 
respect to the CMAS, one of the functions of the alert aggregator would 
be to authenticate the alerts received from alert initiators. In fact, 
as part of their recommendations, the CMSAAC proposed security measures 
for the CMAS including CMAS alerts received by the Alert Aggregator and 
the Alert Gateway.
    Question 2. The Emergency Alert System (EAS) is administered by the 
Department of Homeland Security/Federal Emergency Management Agency 
with support from the Federal Communications Commission (FCC) which 
ensures compliance with existing regulations.
    What specific work does the FCC perform as part of its supporting 
role in administering the EAS program?
    Answer. The FCC's role is to prescribe rules that establish 
technical standards for EAS, procedures for EAS participants to follow 
in the event EAS is activated and EAS testing protocols. The FCC also 
enforces its EAS rules and takes enforcement action, where appropriate.
    Question 3a. On April 10, 2008, the FCC adopted rules for the 
Nation's wireless carriers to transmit timely and accurate alerts, 
warnings, and other critical information by short message service (SMS) 
or text-based alerts to cell phones and other devices.
    What is the status of the industry involvement in developing these 
new rules to facilitate timely transmission of alerts and warnings?
    Answer. The Commission's April 9, 2008 Order did not specify that 
participating CMS providers must deliver emergency alerts using SMS 
technology. Rather, the Commission, in adopting technical rules 
governing the transmission of CMAS alerts, adopted a technologically 
neutral approach which allows participating CMS providers to use any 
technology so long as they are able to comply with the Commission's 
technical rules. CMAS First Report and Order, 35-36 (noting CMSAAC's 
concern about the suitability of SMS and other point-to-point 
technologies for the CMAS, the Commission neither required nor 
foreclosed the use of these and other technologies for the transmission 
of CMAS alerts).
    Wireless industry representatives played an integral role in the 
development of the CMSAAC's recommendations. In addition, the wireless 
industry has, and continues to be, active participants in the 
Commission's ongoing rulemaking proceeding.
    We understand the wireless carriers have begun industry 
standardization in conjunction with standards-setting organizations 
such as the Telecommunications Industry Association (TIA) and the 
Alliance for Telecommunications Industry Solutions (ATIS). With the 
issuance of the CMAS First Report and Order, it is the Commission's 
expectation that those CMS providers planning to participate in the 
CMAS have begun designing their elements of the CMAS in a manner 
consistent with the technical requirements adopted in the Order.
    Question 3b. Have all of the major carriers agreed to participate? 
If not, what are the major concerns that may limit their involvement?
    Answer. Under the WARN Act, CMS providers are not required to 
inform the Commission of their intent to participate in the CMAS until 
30 days after the Commission issues rules governing, among other 
things, the election process. Accordingly, we do not expect to hear 
officially from the major carriers on this issue until early Fall.
    In its CMAS First Report and Order, the Commission generally 
adopted the CMSAAC's recommendations which were supported by wireless 
carriers who participated in the rulemaking proceeding. It is our hope 
that this action, in conjunction with FEMA's decision to serve as the 
Alert Aggregator/Gateway, will encourage strong participation by the 
wireless industry.
    Question 3c. The wireless service providers can send messages using 
any technology but most are planning to use cell broadcast. Will this 
require the purchase of a new phone? If so, what will be the burden on 
consumers?
    Answer. The Commission imposed baseline technical requirements for 
all handsets that will be used to receive emergency alerts over the 
CMAS, but left it to carriers to decide how best to implement those 
requirements. In some cases, handsets may only require software 
changes, but in most cases, new handsets may be required. The burden on 
consumers, if any, will depend on the equipment and network needs of 
their service providers.
    Question 3d. How will the use of cell broadcast impact the 
effectiveness of alert systems and the public's ability to receive 
messages?
    Answer. In adopting technical requirements for the CMAS, the 
Commission did not require the use of cell broadcast or any other 
specific technology for the transmission of alerts. Rather, it allowed 
participating CMS providers the flexibility to determine what 
technologies would be most appropriate for their systems. CMAS First 
Report and Order, at 33-38.
    It is our understanding that some participating CMS providers may 
choose to use point-to-multipoint technologies, such as cell broadcast, 
for the transmission of CMAS alerts. Such one-to-many technologies 
allow a single message to be delivered to many recipients utilizing 
minimal network resources in contrast with point-to-point technologies, 
such as SMS, which require that each recipient receive a unique 
message.
    Question 3e. What rules have been adopted that will ensure that 
those members of the public with disabilities or special needs are able 
to receive alerts and warnings?
    Answer. To address the needs of people with disabilities and the 
elderly, the Commission required that all CMAS-capable handsets must 
include a unique audio attention signal and vibration cadence. CMAS 
First Report and Order, at 65-67.
    Question 3f. What is the timeline for implementation of the rules 
issued in April by those wireless providers that choose to participate?
    Answer. The timeline for initial CMAS deployment will depend on how 
quickly both the Federal Aggregator/Gateway and the wireless industry 
can complete and test their respective portions of the CMAS. In its 
recommendations, the CMSAAC recommended a timeline whereby 
participating CMS providers would be able to begin initial deployment 
by October 2010. The CMSAAC indicated, however, that this proposed 
timeline depends largely on whether the Federal Government meets 
certain deliverables.
    Question 3g. A 2008 Congressional Research Service report indicates 
that there has been uneven implementation of the Commercial Mobile 
Alert System (CMAS). How will the FCC ensure that a standard baseline 
capability is being implemented?
    Answer. The Commission's April 9 Order adopted baseline technical 
requirements for those portions of the CMAS controlled by CMS 
providers. These are the minimal standards with which all participating 
CMS providers must comply and our expectation is that any CMS provider 
that elects to transmit emergency alerts as part of the CMAS would be 
required to implement these baseline standards. Further, one of the 
benefits of a unified Aggregator/Gateway is to ensure consistent 
processing, formatting, routing, security and other administration 
functions for the CMAS.
    Question 4a. A formal public-private partnership to develop IPAWS 
has yet to be formalized due to a delay in receiving approval to 
establish an Advisory Committee that would allow communications between 
FEMA and private stakeholders.
    Based on the FCC's role, is your office assisting FEMA in 
coordinating with the private sector to ensure stakeholder buy-in on 
the front end of the IPAWS development?
    Answer. We are assisting FEMA in coordinating with the private 
sector and ensuring stakeholder participation in industry summits. Last 
month, the Commission hosted a summit on Next Generation EAS which 
brought together industry and government stakeholders, including FEMA. 
In addition, we regularly attend meetings with FEMA and speak on panels 
at EAS conferences and other industry forums.
    Question 4b. How is the FCC involved in encouraging the 
incorporation of innovative solutions into common technologies to 
increase the effectiveness of alerts and warnings?
    Answer. Over the past 2 years the Commission has adopted rules that 
expand the reach of EAS to newer technologies, such as digital TV, 
digital radio, direct broadcast satellite systems, and IPTV systems. We 
have required the use of the common alert protocol (CAP) when adopted 
by FEMA so that all EAS can utilize a common platform. In addition, as 
required by the WARN Act, our April 2008 Order represents a significant 
step in providing the American public with a mobile device mechanism 
for receiving emergency alerts. This will provide the public with 
another method of receiving alerts, particularly in situations when a 
person doesn't have access to a broadcast radio or television.
    Question 4c. What tests or training will be required to utilize 
these technologies?
    Answer. We adopted customized testing regimes as well as EAS 
operations handbooks for each of the technologies that are now subject 
to EAS. The Commission plans to address CMAS testing in a future order.
    Questions From Ranking Member Charles W. Dent for John R. Gibb, 
Director, New York State Emergency Management Office, State of New York
    Question 1. One of the main goals of the Integrated Public Alert 
and Warning System (IPAWS) is to convert the current audio-only system 
that relies on radio and television broadcasting into a multi-faceted 
system that leverages various technological mediums to transmit alerts 
and warnings.
    Will the implementation timeline for IPAWS impact the functionality 
of New York's alert and warning system? Specifically, will the systems 
be interoperable?
    Answer. Response was not provided at the time of publication.
    Question 2. In April 2008, Oregon police reported that false AMBER 
Alert text messages were being sent to the public. Other areas of the 
country, including New York and Mississippi, were also reporting the 
same false alert message. False information can impact the 
effectiveness of alert and warning programs and damage public 
confidence.
    How did New York respond to this situation?
    Answer. Response was not provided at the time of publication.
    Question 3a. States and localities may utilize the Emergency Alert 
System (EAS) as available, but participation by broadcast stations is 
voluntary.
    How often does New York State use the EAS to issue alerts?
    Answer. Response was not provided at the time of publication.
    Question 3b. Since participation is voluntary, have you ever 
encountered a situation where a station opted not to broadcast an EAS 
message that negatively affected the public's ability to prepare for or 
respond to an event?
    Answer. Response was not provided at the time of publication.
    Question 3c. Do you feel that the Federal Emergency Management 
Agency (FEMA) has sufficiently included State and local stakeholders in 
the development of new alert and warning capabilities?
    Answer. Response was not provided at the time of publication.
    Question 4. Currently, FEMA and its Federal partners are working to 
test elements of the IPAWS program. FEMA is conducting pilot programs 
at 14 locations across the country, including New York City and the 
Gulf States.
    How would you assess the pilot programs as they relate to New York?
    Answer. Response was not provided at the time of publication.
 Questions From Ranking Member Charles W. Dent for Randall C. Duncan, 
Vice Chair, Government Affairs Committee, International Association of 
                           Emergency Managers
    Question 1. One of the main goals of the Integrated Public Alert 
and Warning System (IPAWS) is to convert the current audio-only system 
that relies on radio and television broadcasting into a multi-faceted 
system that leverages various technological mediums to transmit alerts 
and warnings.
    Will the implementation timelines for IPAWS impact the 
functionality of your State and local alert and warning systems? 
Specifically, will the system be interoperable?
    Answer. The timeline for implementing the IPAWS system does not 
appear to present any major challenges to local emergency managers. At 
this time, I do not see how that timeline would impact local alert and 
warning systems. Our local alert and warning system in Sedgwick County 
utilizes a number of layers to make sure there is redundancy in the 
message being communicated to the public. These layers include an 
outdoor warning system, interaction with the local electronic media 
(radio and television) and the use of EAS in those areas presently 
served by our major cable provider. At the current time, Sedgwick 
County does not utilize automated outbound telephone systems to deliver 
alerts and warnings. Regarding the issue of interoperability--as long 
as State and local authorized authorities have the ability to initiate 
the IPAWS system when it is in place, then the issue of 
interoperability is somewhat moot. Systems communicating the same 
message need to be coordinated, but do not necessarily need to be 
interoperable. The issue of coordination is fully addressed by having 
the local authorities initiate it.
    Question 2a. States and localities may utilize the Emergency Alert 
System (EAS) as available, but participation by broadcast stations is 
voluntary.
    How often does your county use the EAS to issue alerts?
    Answer. As of the date on which this response was prepared, 
Sedgwick County has not independently issued a warning utilizing EAS. 
The reason for this is that the most common alert and warning issued 
for our area relates to severe convective weather. Since Sedgwick 
County Emergency Management works in extremely close partnership with 
the National Weather Service Weather Forecast Office (WFO) at Wichita, 
typically, they have triggered the EAS for these events. However, 
Sedgwick County has the capability to initiate EAS alerts through the 
use of an authorized EAS ENDEC. We are still working with local 
broadcasters in an inclusive fashion to finalize a plan on what EAS 
alerts and warnings broadcasters will voluntarily carry and/or forward.
    Question 2b. Since participation is voluntary, have you ever 
encountered a situation where a station opted not to broadcast an EAS 
message that negatively affected the public's ability to prepare for or 
respond to an event?
    Answer. Because of the extreme nature of severe convective weather 
events, we have never had the experience of encountering a negative 
situation with failure to broadcast an EAS message. Various media 
outlets have well known styles of coverage for emergencies within our 
community. Local listeners and viewers are well aware of which stations 
carry emergency information and which stations do not.
    Question 2c. Do you feel that the Federal Emergency Management 
Agency has sufficiently included State and local stakeholders in the 
development of new alert and warning capabilities?
    Answer. We think FEMA always has a better outcome when they consult 
stakeholders early in the process. Our participation, to this point, 
has been limited to those States active in the pilot program--however, 
Project Manager Lance Craver has been reaching out to us, and we look 
forward to expanded involvement in the process as the IPAWS program is 
implemented on a nationwide basis.

                                 <all>

</pre></body></html>
